<html>
<title> - PUBLIC SAFETY INTEROPERABILITY: LOOK WHO'S TALKING NOW</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





         PUBLIC SAFETY INTEROPERABILITY: LOOK WHO'S TALKING NOW

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 20, 2004

                               __________

                           Serial No. 108-257

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
98-118                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
KATHERINE HARRIS, Florida            JOHN F. TIERNEY, Massachusetts
                                     DIANE E. WATSON, California

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 20, 2004....................................     1
Statement of:
    Jenkins, William O., Jr., Director, Homeland Security and 
      Justice Issues, U.S. Government Accountability Office; 
      David G. Boyd, Director, SAFECOM Program Office, Science 
      and Technology Directorate, Department of Homeland 
      Security; John B. Muleta, esq., Chief, Wireless 
      Telecommunications Bureau, Federal Communications 
      Commission; Stephen T. Devine, chairperson, Missouri State 
      Interoperability Executive Committee, patrol frequency 
      coordinator, communications division, Missouri State 
      Highway Patrol General Headquarters; and Glen S. Nash, 
      senior telecommunications engineer, State of California, 
      Department of General Services.............................    10
    Thomas, Hanford C., Director, statewide wireless network 
      project, New York State Office for Technology; William J. 
      Gardner, supervisor, Suffolk County Police Department, 
      Technical Services Section, Suffolk County, Long Island, 
      NY; and Professor Glenn P. Corbett, John Jay College of 
      Criminal Justice...........................................   110
Letters, statements, etc., submitted for the record by:
    Boyd, David G., Director, SAFECOM Program Office, Science and 
      Technology Directorate, Department of Homeland Security, 
      prepared statement of......................................    44
    Corbett, Professor Glenn P.m, John Jay College of Criminal 
      Justice, prepared statement of.............................   143
    Devine, Stephen T., chairperson, Missouri State 
      Interoperability Executive Committee, patrol frequency 
      coordinator, communications division, Missouri State 
      Highway Patrol General Headquarters, prepared statement of.    77
    Gardner, William J., supervisor, Suffolk County Police 
      Department, Technical Services Section, Suffolk County, 
      Long Island, NY, prepared statement of.....................   135
    Jenkins, William O., Jr., Director, Homeland Security and 
      Justice Issues, U.S. Government Accountability Office, 
      prepared statement of......................................    13
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................   153
    Muleta, John B., esq., Chief, Wireless Telecommunications 
      Bureau, Federal Communications Commission, prepared 
      statement of...............................................    60
    Nash, Glen S., senior telecommunications engineer, State of 
      California, Department of General Services, prepared 
      statement of...............................................    86
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Thomas, Hanford C., Director, statewide wireless network 
      project, New York State Office for Technology, prepared 
      statement of...............................................   114

 
         PUBLIC SAFETY INTEROPERABILITY: LOOK WHO'S TALKING NOW

                              ----------                              


                         TUESDAY, JULY 20, 2004

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Kucinich, Turner, Maloney, 
Ruppersberger, Tierney, and Watson.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy advisor; Robert A. 
Briggs, clerk; Grace Washbourne, full committee professional 
staff member; Andrew Su, minority professional staff member; 
and Cecelia Morton, minority office manager.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``Public Safety Interoperability: Look Who's 
Talking Now,'' is called to order.
    The terrorist attacks of September 11, 2001 exposed 
dangerous gaps and failures in essential communication systems. 
Cell phone networks collapsed. First responders using 
incompatible radios could not relay vital information. The New 
York Stock Exchange shut down, but the Federal Reserve System 
and the Nation's banking network continued to operate.
    Why? Because standardization, technical interconnectivity 
and redundancy at banks protected that critical communication 
infrastructure. Almost 3 years later, the critical 
telecommunications networks first responders bank on every day 
to save lives remain fragmented and vulnerable. Despite 
significant expenditures and some progress, public safety and 
emergency response communications still lack the bandwidth and 
connectivity needed to sustain essential capabilities in a 
major crisis.
    So today we revisit the status of Federal efforts to 
improve first responder interoperability. As we will hear in 
testimony, forging links between more than 44,000 State and 
local agencies and over 100 Federal programs and offices poses 
daunting challenges. The lack of interoperability accurately 
reflects a lack of intergovernmental consensus on the urgency, 
feasibility and affordability of communication upgrades.
    Uncoordinated planning and funding cycles seem to keep the 
consensus beyond reach. Disjointed Federal grant programs do 
little to guide State and local programs toward effective short 
or long term solutions, and the push for interoperability 
further complicates the already intense competition between 
public and commercial users for choice radio frequency spectrum 
bands.
    A recent decision by the Federal Communications Commission 
to clear interference from the 800 megahertz public safety 
bands should help improve the performance of critical systems. 
But crowded spectrum is only one aspect of the problem. Another 
serious impediment is the lack of standardized information on 
the capabilities of current systems. Without broadly accepted 
technology and performance standards against which to measure 
progress, it is difficult to determine where we are, and all 
but impossible to know if we're getting anywhere.
    After our hearing on these issues last November, we asked 
the Government Accountability Office, newly named but still 
GAO, to examine current Federal efforts to foster 
interoperability. The report issued today finds 
intergovernmental corroboration lacking and calls for 
standards, benchmarks and funding discipline to focus the 
currently rudderless process.
    All the technical and regulatory jargon should not be 
allowed to obscure the central fact that lives are at stake. 
Selfless work on these issues by Monica Gabrielle, Sally 
Regenhard, Beverly Eckert, Mary Fetchet and so many other 
September 11 family members reminds us of our solemn obligation 
to speak with one urgent voice to avoid future tragedies.
    We appreciate the time, expertise and dedication of all our 
witnesses who bring to us a very important discussion, and we 
look forward to each and every one of their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T8118.001
    
    [GRAPHIC] [TIFF OMITTED] T8118.002
    
    Mr. Shays. At this time, the Chair would recognize the 
gentlelady, the very effective lady from New York, Carolyn 
Maloney.
    Mrs. Maloney. Thank you very much, Chairman Shays, and for 
your continued work on public safety and interoperability 
specifically. Your commitment to our Nation's first responders 
is evident, not only by the number of hearings, the report you 
requested on this subject, but also the legislation that you 
sponsored with me in May, the 9/11 Can You Hear Me Now Act, 
H.R. 4386.
    Today we will have the opportunity to discuss the current 
state of interoperability in New York's metropolitan area, and 
we will have the opportunity to hear from Dr. Glenn Corbett, 
who is a professor at John Jay College of Criminal Justice in 
New York City and a constituent that I'm proud to represent. 
He, along with the Skyscraper Safety Campaign, provided some of 
the technical assistance in developing the 9/11 Can You Hear Me 
Now legislation.
    I introduced the legislation and the Act because the 
current state of first responder communications in New York 
City is not anywhere near what it needs to be. While there have 
been a number of improvements since September 11, nearly 3 
years later the New York City Fire Department still lacks the 
basic infrastructure to communicate effectively and true 
interoperability simply does not exist.
    At the same time, we all know that New York continues to be 
a top terrorist target, and the protection of New York City 
must be a national responsibility. The lack of a fully 
functional communication system for the New York Fire 
Department is not only a threat to our firefighters' and New 
York residents' lives, but to all who visit the city.
    The legislation that Chairman Shays and I introduced would 
mandate the Department of Homeland Security to provide a fully 
functional communication system to the New York Fire Department 
within 1 year of its passage. This communication system would 
include four components: radios, dispatch system, critical 
information dispatch system and a supplemental communications 
device for individual firefighters. This communications system 
would be required to work in all buildings and in all parts of 
the city, something that unbelievably does not happen now, and 
tragically did not happen on September 11.
    The proposed legislation requires coordination with the 
city of New York and their planned upgrades of the emergency 
September 11 system and any interoperability initiatives with 
other public safety communications systems. If this system in 
New York was developed, it could be a model for large cities 
across the country, cities that are frequently mentioned as 
under the greatest threat of a terrorist attack.
    Beyond doing whatever it takes to prevent future attacks, 
one of our greatest fears is that we will not have taken the 
lessons from September 11 and be prepared for the future. We 
know that there were terrible communications failures on 
September 11. According to an independent report by McKinsey 
and Co., it may have cost upwards of 100 firefighters their 
lives on September 11, and obviously many other independent 
residents and workers that were in the buildings.
    I can tell you that when I arrived at the Ground Zero 
central command on September 11 and asked what it was that was 
needed, they said, get us radios, we don't have any radios that 
work. Bill Young, at my request, and others, flew down radios 
that could work on the work site the next day.
    The time to act is now. We need to do absolutely everything 
to ensure that we invest in the infrastructure and technology 
necessary for our first responders to communicate during every 
disaster. And that is why I'm also a co-sponsor of H.R. 440, 
The CONNECT First Responders Act. This legislation will 
significantly enhance the Federal Government's effort to 
achieve this critical objective by creating, first of all, and 
fully authorizing, the Office of Wireless Public Safety 
Interoperability Communications within the Department of 
Homeland Security. And giving this office the authority and 
annual budget to work with Federal, State, and local 
stakeholder to develop and implement a national strategy to 
achieve interoperability.
    Second, establishing a new grant program dedicated to 
achieving communications interoperability nationwide. We need 
both of these acts to be passed and brought into law, because 
we need to do absolutely everything to protect our citizens 
from any future attack. It is obviously 101 to say that we need 
to have a radio system that works. We did not have one on 
September 11. We still do not have one.
    I hope we hear some answers today from our distinguished 
panelists. Thank you all for being here, and thank you, Mr. 
Corbett, for coming, too.
    Mr. Shays. I thank the gentlelady.
    At this time the Chair would recognize Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing, and for your continued effort to make 
certain that our country's response to the terrorist threat is 
appropriate. The need for communication interoperability took 
center stage following the terror attacks in New York and 
Washington, DC. That event showcased the difficulty of first 
responders even in the same community to communicate with one 
another.
    The inability to communicate becomes an even larger issue 
as you look at Federal and State agencies working together. 
This subcommittee, under the chairman's leadership, held a 
field hearing in Stamford, CT, where Mrs. Maloney was present. 
And there it was clear that the issue for agencies to talk to 
one another was very important in the issue of responding to a 
terrorist threat. My community, Dayton, OH, held a weapons of 
mass destruction attack exercise prior to September 11th. And 
there the inability to communicate was identified as a major 
hurdle in providing a coordinated response.
    The Federal Government has a very important role to play in 
ensuring that communication interoperability exists among 
Federal, State and local agencies. However, it is important 
that the Federal Government does not operate in a vacuum, 
ignoring the lessons and advice of local first responders. 
Local and State governments should be active participants in 
any effort to ensure seamless communication.
    And we thank the chairman for his continued effort in not 
only looking for a solution but continuing to focus on this 
process as we move forward.
    Mr. Shays. I thank the gentleman.
    Mr. Ruppersberger. I too thank you, Mr. Chairman, for your 
leadership in the critical homeland security priority. Both 
Republican and Democratic leadership of this committee have 
committed to keeping this issue on the congressional radar 
screen. I think it is entirely necessary and appropriate.
    Until now, my background has been local leadership. Along 
with many of my colleagues on this committee and throughout the 
House, I am concerned about the needs of local first 
responders, our front line soldiers in the war on terrorism. We 
learned many expensive lessons on that tragic September day 
almost 3 years ago. One of the most correctable was the need 
for first responders to be able to communicate.
    Terrorist attacks and all other hazards requiring police 
and firefighters to respond do not know county, city, State or 
even regional boundaries. So when an event occurs and people 
run into danger to save innocent lives, they should be able to 
talk to one another. It doesn't get any more basic than that.
    This revelation is not new. Yet we are almost 3 years later 
in trying to decide how this should work. There are three 
fundamentals to determine regarding interoperability: what are 
localities doing now; what sort of national standards should we 
set to transcend inherent jurisdictions and boundaries; and how 
will we pay for this technology. We need a national status 
report that shows us what is happening at the local level. 
Progress requires a clear and accurate picture of what is 
happening in each State, how local elected and local first 
responders have been involved in the development of State plans 
and how much of that effort has focused on the big issues of 
interoperability.
    At a time when we have incredible spending levels to fight 
the war on terrorism abroad, as I believe we should, I think we 
need an equal commitment to prioritize Homeland Security needs. 
Our first responders, our hometown troops, need our help, and I 
look forward to working with my colleagues on both sides of the 
aisle to move this issue forward.
    Mr. Shays. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I just want to join 
my colleagues here in acknowledging the extent of this 
particular problem and knowing that since the events of 
September 11th, we have exposed what's been a longstanding and 
complex problem with our public safety agencies.
    Even the 9/11 Commission's recent report indicates that 
many lives possibly could have been saved had we had the system 
in place. It goes back, of course, to the Oklahoma City 
bombing, where after that study showed that the first 
responders had to use runners to carry messages from one 
command center to another because the responding agencies used 
different emergency radio channels, different frequencies and 
different radio systems.
    In order to achieve communications interoperability, which 
is probably the highest priority issue for our public safety 
community, we have to a lot more than we are currently doing 
right now. The April report from GAO reported that project 
SAFECOM had made very little progress. The most recent report 
indicates that there is still a great distance to go. It cited 
a lack of consistent executive commitment and support and an 
inadequate level of interagency collaboration.
    So 8 years after the final report and detailed 
recommendations to improve interoperability from the Federal 
Government's Public Safety Wireless Advisory Committee, and 
over 2 years after the initiation of Project SAFECOM, it 
doesn't seem that we've made much progress on this front. 
Secretary Ridge has stated that there are immediate steps the 
Departments can take while we focus on long range integrated 
solutions. We agree with that.
    The Department of Homeland Security should be providing 
dedicated annual funding for both short term and long term 
enhancements to State and local interoperable communications 
systems. The administration has to address the disjointed 
Federal approach to interoperability by clearly assigning 
principal responsibility for communications interoperability to 
one office in the Federal Government.
    Along with Mrs. Maloney and others, we've introduced 
Connecting the Operations of National Networks of Emergency 
Communications Technologies for First Responders Act, the so-
called CONNECT for First Responders Act, that should address 
most of these issues. The act would replace the ineffective 
interagency group, at least as the GAO says it is, known as 
Project SAFECOM, that currently oversees the Federal 
interoperability efforts with a unified office within the 
Department of Homeland Security. It would provide this office 
with a dedicated annual budget, charge it with working with 
Federal, State and local stakeholder to develop and implement a 
national strategy to achieve interoperability. That should 
provide us, at least head us in the right direction.
    Without a robust, consistent budget and the necessary 
authority, I think our efforts are going to continue to fail in 
this area. So this legislation would substantially increase the 
role of the new office in accelerating and implementing 
nationwide interoperable communications. It would authorize $50 
million for fiscal year 2005 for the administration of the 
office. That would be more than double the $22 million that the 
administration has requested for SAFECOM in fiscal year 2005.
    The bill would establish a new Department of Homeland 
Security grant program dedicated to achieving communication 
interoperability nationwide, funding both immediate and long 
term solutions for our communications needs. Like the 
Assistance to Firefighters grant program, the bill authorizes 
the Secretary to make direct grants to local governments and 
public safety agencies, but also authorizes grants to State 
governments.
    I for one, and I think others joining me, continue to be 
disappointed that this administration insists on adding an 
extra level of bureaucracy by putting these matters through the 
States instead of down to the local communities. The Fire Act, 
the COPS grant with the grants directly to the local 
communities in my estimation has worked far more effectively 
than the process that we now see, working on Department of 
Homeland Security grants.
    We know that achieving nationwide interoperability will 
require a significant financial commitment to all levels of 
government. Previous estimates for upgrading communications 
systems nationwide have ranged as high as $18 billion. 
Recently, the private sector estimated that approximately $350 
million is necessary to implement a comprehensive patching 
system throughout the country.
    The bill would authorize $5 billion over 5 years for the 
grant program, starting at $500 million for fiscal year 2005 
and increasing funding by $250 million per year. The reason we 
increase the authorization level each year in the bill is in 
order to first facilitate the immediate acquisition of short 
term communications equipment to link existing communications 
infrastructure and second, to initiate the development of 
comprehensive interoperable communication plans prior to more 
extensive equipment purchase in the latter years of the 
program.
    Purchasing and implementing new technologies, such as 
patching or switching systems, will only provide us with a 
short term solution to a critical problem. Ultimately, we would 
like to see all communication systems sharing open 
architectures and standard technologies, so that different 
radio systems made by different manufacturers can communicate 
on demand. The bill indicates our belief that we can achieve 
this goal in cooperation, not competition, with the private 
sector radio systems manufacturers.
    I'd like to close with one last concern, and that is that 
in Cambridge, Massachusetts, we've had a number of individuals 
connected with MIT and other institutions up there who actually 
have an open system on the internet with security provided that 
the military has been using now for some time as a pilot 
program. That program was offered to the Department of Homeland 
Security for pilot programs and I can't tell you exactly what 
the delay was in that, but it took months and months before we 
could get anybody's attention.
    My fear is that there was more of an attitude of looking to 
see if a larger contract worth far many more dollars could be 
given to a larger contractor than to go with a system that in 
order to have been performing well with the military would cost 
far less and be implemented in a more expeditious manner. So I 
hope that the Department of Homeland Security is really looking 
to do this the right way, do it as economically and soundly as 
possible, and not let the political or the prior connections 
with other companies get in the way of getting this job done as 
soon as possible and in the best way possible.
    I yield back.
    Mr. Shays. Thank you.
    Mr. Turner [assuming Chair]. I ask unanimous consent that 
all members of the subcommittee be permitted to place any 
opening statement in the record, and that the record remain 
open for 3 days for that purpose. Without objection, so 
ordered.
    Further, I ask unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
And without objection, so ordered.
    Today, I would like to introduce our first panel of 
witnesses. We have Mr. William Jenkins, Jr., Director, Homeland 
Security and Justice Issues, U.S. Government Accountability 
Office. We have Dr. David Boyd, Program Manager, SAFECOM, U.S. 
Department of Homeland Security; Mr. John Muleta, Chief, 
Wireless Telecommunications Bureau, Federal Communications 
Commission; Mr. Stephen Devine, patrol frequency coordinator, 
Communications Division, Missouri State Highway Patrol General 
Headquarters; and Mr. Glen Nash, Telecommunications Division, 
California Department of General Services.
    Gentlemen, we do swear in our witnesses for this 
subcommittee. Would you please stand and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Turner. Note for the record that the witnesses 
responded in the affirmative.
    Before we proceed, we have a comment from our chairman.
    Mr. Shays. Thank you, Mr. Chairman. I just wanted to say 
that we really have an outstanding panel before us. As I was 
walking in, I want to just emphasize the fact that we're very 
fortunate to have all five of you here. Obviously having the 
Government Accountability Office here, the GAO here to set the 
stage is helpful. To have both the Department of Homeland 
Security and the Federal Communications Commission folks in the 
same room talking together is vital.
    I particularly want to say to Stephen Devine and Glen Nash, 
I know as State officials, that you have become national 
experts on this issue. You've devoted a number of years to 
trying to work this out. So while you're from Missouri and 
while you're from California, you really are carrying the 
weight for all the States. We wanted to get the best and we 
were told the two of you are. So we thank you both for being 
here.
    Mr. Turner. Thank you.
    Gentlemen, we're going to ask, because of the size of the 
panel, that each of you try to limit your comments to the 5 
minutes that are allocated. You can see the lights in front of 
you that will be counting down for you. We will begin with Mr. 
Jenkins.

   STATEMENTS OF WILLIAM O. JENKINS, JR., DIRECTOR, HOMELAND 
  SECURITY AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
   OFFICE; DAVID G. BOYD, DIRECTOR, SAFECOM PROGRAM OFFICE, 
  SCIENCE AND TECHNOLOGY DIRECTORATE, DEPARTMENT OF HOMELAND 
        SECURITY; JOHN B. MULETA, ESQ., CHIEF, WIRELESS 
 TELECOMMUNICATIONS BUREAU, FEDERAL COMMUNICATIONS COMMISSION; 
STEPHEN T. DEVINE, CHAIRPERSON, MISSOURI STATE INTEROPERABILITY 
      EXECUTIVE COMMITTEE, PATROL FREQUENCY COORDINATOR, 
COMMUNICATIONS DIVISION, MISSOURI STATE HIGHWAY PATROL GENERAL 
   HEADQUARTERS; AND GLEN S. NASH, SENIOR TELECOMMUNICATIONS 
 ENGINEER, STATE OF CALIFORNIA, DEPARTMENT OF GENERAL SERVICES

    Mr. Jenkins. Mr. Chairman and members of the subcommittee, 
I appreciate the opportunity to be here today to discuss our 
work on wireless interoperable communications for first 
responders.
    In November 2003 testimony before this subcommittee, we 
outlined three challenges in achieving interoperable 
communications that remain the principal challenges today. They 
are, one, clearly defining and identifying the problem; two, 
establishing performance goals, requirements and standards; and 
three, defining governmental roles in addressing the problem.
    This morning I'd like to highlight some key points from our 
report being released today that focuses on these challenges 
and the extent to which Federal grants support interoperable 
communications improvements. First, with regard to problem 
definition, the current status of interoperable communications 
capabilities nationwide, including the scope and severity of 
any shortcomings, has not yet been determined. To assess those 
capabilities, a set of requirements is needed that can be used 
to assess what is compared to what should be.
    In April 2004, SAFECOM issued a document designed to serve 
as a set of requirements. SAFECOM expects to complete a 
baseline assessment of current interoperable capabilities by 
July 2005, but is still refining its methodology for developing 
that baseline.
    Second, with regard to intergovernmental roles, Federal, 
State and local governments all have important roles in 
assessing interoperability requirements, identifying gaps in 
the current ability to meet those requirements and developing 
and implementing comprehensive plans for closing those gaps. 
The Federal Government can provide the leadership, focus and 
long-term commitment needed. It can take leadership in 
developing a national architecture for interoperability, a 
national data base for interoperable frequencies, a national 
standard nomenclature for those frequencies and supporting 
State efforts to develop and implement Statewide interoperable 
communication plans.
    SAFECOM was established as the Federal umbrella program for 
coordinating all Federal initiatives and projects on public 
safety interoperable communications. According to SAFECOM, 
there are more than 100 Federal agencies and programs involved 
in public safety issues. SAFECOM's ability to provide the 
needed Federal leadership and coordination has been hampered by 
its dependence upon other Federal agencies for funding and 
cooperation. DHS has recently created the Office of 
Interoperability and Compatibility to be fully established by 
November 2004, and which will include SAFECOM. But the office's 
structure, funding and authority are still being developed.
    With broad input from local governments and first 
responders, States can serve as the focal points for statewide 
interoperability planning and implementation. The FCC has 
recognized the States' importance by providing the States 
authority to administer the interoperability channels within 
the 700 megahertz spectrum. Some States are working to develop 
statewide plans, but there is no established structure or 
funding for supporting such efforts. Nor is there any guidance 
for States on what should be included in such plans.
    And of course, such plans would need to encompass cross-
State interoperability issues. New York, Philadelphia and 
Cincinnati are examples of metropolitan areas that cross State 
boundaries and where cross-State communications must be 
encompassed in any regional or State interoperability plan.
    Third, the fragmented Federal grant structure for first 
responders does not effectively support statewide 
interoperability planning. SAFECOM has developed recommended 
grant guidance for all Federal grants whose moneys could be 
used to improve interoperability. The guidance has been 
incorporated in part in some grants, but SAFECOM cannot require 
that consistent guidance be included in all Federal grants for 
first responders.
    Moreover, the structure of some grants does not support 
long-term planning efforts, because for example, the grants do 
not require any interoperable communications plan prior to 
receiving funds. Or, the grants may also include a 1 or 2 year 
performance period that may encourage a focus on equipment 
purchases rather than comprehensive planning to guide those 
purchases.
    Finally, Federal and State governments lack a coordinated 
grant review process to ensure that funds allocated to local 
governments are used for communication projects that complement 
each other and add to overall statewide and national 
interoperable capacity. One result is that grants could be 
approved for bordering jurisdictions that propose conflicting 
interoperable solutions. We recognize that SAFECOM has made 
progress in bringing leadership and focus to the Federal 
Government's interoperability efforts and many State and local 
officials are working diligently to assess and approve 
interoperable communications.
    However, as we said last November, the fundamental barrier 
to effectively addressing wireless interoperability problems 
has been and remains the lack of effective, collaborative, 
interdisciplinary and intergovernmental cooperation and 
planning. Our report includes recommendations to the Secretary 
of DHS and the Director of OMB for enhancing Federal 
coordination and providing assistance and encouragement to 
States to establish statewide interoperable planning bodies 
that draw on the experience and perspectives of local first 
responders.
    That concludes my statement, Mr. Chairman, and I'd be happy 
to answer any questions you or other members of the committee 
may have.
    [Note.--The GAO report entitled, ``Homeland Security, 
Federal Leadership and Intergovernmental Cooperation Required 
to Achieve First Responder Interoperable Communications,'' may 
be found in subcommittee files.]
    [The prepared statement of Mr. Jenkins follows:]

    [GRAPHIC] [TIFF OMITTED] T8118.006
    
    [GRAPHIC] [TIFF OMITTED] T8118.007
    
    [GRAPHIC] [TIFF OMITTED] T8118.008
    
    [GRAPHIC] [TIFF OMITTED] T8118.009
    
    [GRAPHIC] [TIFF OMITTED] T8118.010
    
    [GRAPHIC] [TIFF OMITTED] T8118.011
    
    [GRAPHIC] [TIFF OMITTED] T8118.012
    
    [GRAPHIC] [TIFF OMITTED] T8118.013
    
    [GRAPHIC] [TIFF OMITTED] T8118.014
    
    [GRAPHIC] [TIFF OMITTED] T8118.015
    
    [GRAPHIC] [TIFF OMITTED] T8118.016
    
    [GRAPHIC] [TIFF OMITTED] T8118.017
    
    [GRAPHIC] [TIFF OMITTED] T8118.018
    
    [GRAPHIC] [TIFF OMITTED] T8118.019
    
    [GRAPHIC] [TIFF OMITTED] T8118.020
    
    [GRAPHIC] [TIFF OMITTED] T8118.021
    
    [GRAPHIC] [TIFF OMITTED] T8118.022
    
    [GRAPHIC] [TIFF OMITTED] T8118.023
    
    [GRAPHIC] [TIFF OMITTED] T8118.024
    
    [GRAPHIC] [TIFF OMITTED] T8118.025
    
    [GRAPHIC] [TIFF OMITTED] T8118.026
    
    [GRAPHIC] [TIFF OMITTED] T8118.027
    
    [GRAPHIC] [TIFF OMITTED] T8118.028
    
    [GRAPHIC] [TIFF OMITTED] T8118.029
    
    [GRAPHIC] [TIFF OMITTED] T8118.030
    
    [GRAPHIC] [TIFF OMITTED] T8118.031
    
    [GRAPHIC] [TIFF OMITTED] T8118.032
    
    [GRAPHIC] [TIFF OMITTED] T8118.033
    
    [GRAPHIC] [TIFF OMITTED] T8118.034
    
    Mr. Turner. Thank you.
    Dr. Boyd.
    Dr. Boyd. Good morning, and thank you, Mr. Chairman and 
members of the committee for the invitation to speak to you 
today.
    Whether fighting a fire or responding to a terrorist 
attack, emergency responders need coordination, communication 
and the ability to share vital information and equipment among 
a wide variety of public safety and security agencies. 
Unfortunately, the reality today is that agencies too often 
cannot communicate by radio because their equipment is 
incompatible or the frequencies they are assigned are 
different. They operate on 10 different frequency bands and run 
communications systems which are often 30 years old in an era 
with the technology life cycle of only 18 to 24 months.
    Earlier this year, the Secretary of Homeland Security asked 
the Directorate of Science and Technology within DHS to lead 
the planning and implementation of a program office to 
significantly improve the coordination and management of the 
Department's interoperability programs for equipment and 
training as well as for communications, so we can make it 
possible for firefighters, police officers, and other emergency 
personnel to better communicate and share equipment during a 
major disaster. This office will reduce unnecessary duplication 
in programs and spending and assure consistency across Federal 
activities related to research and development, testing and 
evaluation standards, technical assistance, training and grant 
funding related to interoperability.
    Since DHS assumed responsibility for SAFECOM 13 months ago, 
5 principals have been put in place by SAFECOM to drive this 
new office. First, emergency response providers and homeland 
security practitioners who own, operate and maintain more than 
90 percent of the Nation's wireless public safety 
infrastructure must be integrated into the program from its 
beginning to ensure the solutions we create actually meet their 
needs.
    Second, coordination of existing Federal programs is 
essential to reduce unnecessary duplication of effort, permit 
the most efficient use of Federal resources and allow us to 
leverage the investments that many public safety agencies have 
already made. Third, properly designed non-proprietary open 
architecture standards are required to maximize competition 
across industry, encourage technology innovation, reduce costs 
and help to ensure compatibility among public safety and 
Homeland Security agencies.
    Fourth, compliance with the National Incident Management 
System, the National Response Plan and relevant Homeland 
Security Presidential directives will provide a consistent, 
nationwide approach for agencies at all levels of government to 
work well together to prepare for, prevent, respond to and 
recover from major incidents. And finally, outreach efforts 
will emphasize the need for interoperability and provide tools 
for its implementation to practitioners and policymakers at all 
levels of government. We will model the operations of this 
office after the successful SAFECOM program. As a public safety 
practitioner driven program, SAFECOM is working with existing 
Federal communications initiatives and key public safety 
stakeholders to address the need to develop better technologies 
and processes for the cross-jurisdictional and cross-
disciplinary coordination of existing systems and future 
networks.
    SAFECOM developed the first national grant guidance already 
incorporated into grant programs of the community oriented 
policing services, Federal Emergency Management Agency and the 
Office for Domestic Preparedness to direct Federal programs 
funding public safety communications equipment in State and 
local agencies. In January of this year, the major associations 
representing the police chiefs, fire chiefs, sheriffs, mayors, 
cities, counties and public safety communications officers 
observed in a joint letter that with the advent of SAFECOM, 
public safety, and State and local governments finally have 
both a voice in public safety discussions at the Federal level 
and confidence that the Federal Government is coordinating its 
resources.
    In April, SAFECOM published the first national statement of 
requirements for wireless public safety communications and 
interoperability which constitutes the first national 
definition of what interoperability must accomplish. It will 
drive the development and creation of interface standards that 
will satisfy public safety practitioner needs, offer industry a 
resource for understanding user needs, guide the development of 
new technologies and serve as a guide in developing SAFECOM 
research, development, test and evaluation programs.
    Within a month of its posting, over 5,000 copies of the 
statement of requirements were downloaded, and manufacturers 
have begun to show us how they were mapping the capabilities of 
their equipment, especially new designs, to these requirements. 
We established a Federal interagency coordination council to 
bring together all the Federal players who provide grants to 
States and localities, operate communications systems that need 
to be interoperable or that have regulatory functions touching 
on interoperability. We've engaged in discussions with the FCC 
and recently agreed to form a task force to allow continuous 
interaction between the new interoperability office and FCC 
staff.
    The Nation must continue to pursue the current, 
comprehensive strategy that takes into account technical and 
cultural issues associated with improving communications and 
interoperability. In doing so, it addresses research, 
development, testing and evaluation, procurement planning, 
spectrum management, standards, training, and technical 
assistance. The approach recognizes the challenges associated 
with incorporating legacy equipment and practices, given the 
constantly changing nature of technology.
    It is imperative that this new Office of Interoperability, 
with its partners, work toward a world where lives and property 
are never lost because public safety agencies are unable to 
communicate or lack compatible equipment and training 
resources.
    Thank you, Mr. Chairman. I'd be happy to answer any 
questions.
    [The prepared statement of Dr. Boyd follows:]

    [GRAPHIC] [TIFF OMITTED] T8118.035
    
    [GRAPHIC] [TIFF OMITTED] T8118.036
    
    [GRAPHIC] [TIFF OMITTED] T8118.037
    
    [GRAPHIC] [TIFF OMITTED] T8118.038
    
    [GRAPHIC] [TIFF OMITTED] T8118.039
    
    [GRAPHIC] [TIFF OMITTED] T8118.040
    
    [GRAPHIC] [TIFF OMITTED] T8118.041
    
    [GRAPHIC] [TIFF OMITTED] T8118.042
    
    [GRAPHIC] [TIFF OMITTED] T8118.043
    
    [GRAPHIC] [TIFF OMITTED] T8118.044
    
    [GRAPHIC] [TIFF OMITTED] T8118.045
    
    [GRAPHIC] [TIFF OMITTED] T8118.046
    
    [GRAPHIC] [TIFF OMITTED] T8118.047
    
    Mr. Turner. Thank you.
    Mr. Muleta.
    Mr. Muleta. Good morning, Mr. Chairman and members of the 
subcommittee. I want to thank you for this opportunity to 
appear before you on behalf of FCC to discuss our work in 
facilitating interoperability between the Nation's public 
safety communication systems.
    As an initial matter, I commend your decision to request 
GAO to study the critical issues related to public safety 
interoperability and its importance to homeland security. Our 
staff at the FCC is committed to participating in the 
initiatives of other interested stakeholders designed to 
identify, assess and analyze interoperability successes and 
challenges. I look forward to hearing this committee's views 
regarding the findings and the recommendations of the report.
    The FCC's experience working with public safety entities 
and stakeholders is expansive and far-reaching. Today there are 
more than 40,000 spectrum licenses designated for public safety 
systems under the Communications Act. The FCC has a unique role 
of providing spectrum that State and local governments use as 
an integral part of these systems. Under the leadership of 
Chairman Powell, the Commission has intensified its efforts in 
this area and designated homeland security and public safety 
issues as one of the Commission's six core strategic 
objectives.
    As September 11th vividly demonstrated, the ability of 
public safety systems to communicate seamlessly at incident 
sites with minimal onsite coordination is critical to saving 
lives and property. The FCC is therefore committed to use all 
of its resources to promote and enhance the interoperability of 
the thousands of public safety systems that make up the 
critical part of our Nation's homeland security network.
    Our experience indicates that a holistic approach is the 
best method for fostering interoperability. Achieving 
interoperability requires focus on more than spectrum, 
technology and equipment issues. It also requires a focus on 
the organizational and the personal coordination and 
communication necessary to make it available in the times of 
our greatest needs. For its part, the Commission directs its 
efforts toward providing additional spectrum for public safety 
systems, nurturing technological developments enhancing 
interoperability, and providing its expertise and input to 
interagency efforts such as SAFECOM to improve our homeland 
security.
    It is important that despite all its efforts, there are 
limits to what the FCC can do. The FCC is only one stakeholder 
in the process, and many of the challenges facing 
interoperability are a result of the disparate governmental 
interests, local, State and Federal, that individually operate 
portions of our national public safety system. Each of these 
interests has different capabilities in terms of funding and 
technological sophistication, making it difficult to develop 
and deploy interoperability strategies uniformly throughout the 
country.
    Regardless of these problems, we at the FCC continue to 
advance policies that enable all of the stakeholders to do 
their best in maintaining a strong and viable national public 
safety system.
    In terms of additional spectrum for public safety, the 
Commission currently has designated throughout the country 
approximately 97 megahertz of spectrum for public safety use. 
The Commission has also designated certain channels on these 
public safety bands specifically for interoperability, and a 
public safety licensee may use these designated frequencies 
only if it uses equipment that permits inter-system 
interoperability. The frequencies that have so-called use 
designations include 2.6 megahertz in the 700 megahertz band, 5 
channels in the 800 megahertz band, 5 channels in the 150 
megahertz band, which is a VHF band, and 4 channels in the 450 
megahertz band, which is the UHF band.
    In addition, and very importantly, starting next January 
the Commission will require newly certified public safety 
mobile radio units to have the capacity to transmit and receive 
on the nationwide public safety interoperability calling 
channel in the UHF and VHF bands in which they operate.
    In the last few years, the Commission has made two 
additional spectrum allocations that illustrate the importance 
placed on ensuring public safety entities have additional 
interoperable spectrum to carry out their critical missions. 
First, consistent with the Balanced Budget Act of 1997, the FCC 
identified and allocated 24 megahertz in the 700 megahertz band 
for public safety use. In particular, we also dedicated 2.6 
megahertz of the spectrum for interoperability purposes.
    Given the central role the States provide in managing 
emergency communications and consistent also with the GAO's 
findings, the FCC also concluded that States are well suited 
for administering the interoperability spectrum, and that State 
level administration would promote safety of life and property 
through seamless and coordinated communications on the 700 
megahertz interoperability spectrum.
    Second, the FCC designated 50 additional megahertz of 
spectrum at 4.9 gigahertz for public safety users in response 
to requests from public safety community for additional 
spectrum for broad band data communications. The 4.9 gigahertz 
band also fosters interoperability by providing a new 
regulatory framework in which traditional public safety 
entities can pursue strategic relationships with others, such 
as critical infrastructure entities, for the completion of 
their mission.
    In addition to using its resources to identify additional 
spectrum, the FCC has also provided innovative licensing 
methods, creative planning methods that encourage better 
coordination, and advocated new technologies in order to 
promote the effective, interoperable use of public safety 
spectrum. Foremost, the Commission adopted the regional 
planning approach spectrum management as an alternative to the 
traditional first in the door approach to spectrum licensing 
and management in the public safety context.
    The Commission has also developed new rules permitting two 
types of spectrum sharing in order to promote interoperability. 
First, the FCC's rules specifically provide for shared use of 
radio stations where public safety licensees may share their 
facilities on a non-profit cost shared basis with other public 
safety organizations that use it as end users. This rule has 
now been expanded to also include Federal Government users.
    A second type of sharing is unique to the 700 megahertz 
public safety spectrum. In this spectrum band, State and local 
public safety licensees may construct and operate joint 
facilities with the Federal Government.
    In terms of coordination, the FCC recognizes interagency 
coordination as an essential factor in developing effective 
interoperability. In 1999, the FCC organized a public safety 
National Coordination Committee as a Federal advisory 
committee, and asked it to recommend technical and operational 
standards that provide for interoperability in the 700 
megahertz public safety band. The NCC, which finished its 
charter last year, also worked with the Telecommunications 
Industry Association, an accredited open standards developer, 
to develop interoperability technical standards that are open 
and non-proprietary, that are lowering costs and increasing the 
rate of adoption by public safety licensees.
    The Commission staff also routinely confers and does 
outreach with critical organizations, including the Association 
of Public Safety Commissions Office, the National Public Safety 
Telecommunications Council, the International Association of 
Fire Chiefs and the International Association of Chiefs of 
Police, some of whose representatives are here today. Moreover, 
the staff is closely working with the Department of Homeland 
Security SAFECOM, as we both share the common goal of improving 
public safety communications interoperability.
    We are continuing our collaborative efforts to develop a 
strong working relationship both formally and informally. Dr. 
Boyd and I are also continuing to work together at a personal 
level to promote and ensure effective coordination regarding 
homeland security and public safety communications initiatives.
    In addition to our regular meetings, we recently committed 
to establish an informal working group comprised of 
representatives of our respective staffs to meet and share 
information on a regular basis on issues of interoperability.
    I'd like to thank you again for the opportunity to testify 
in front of you on this important issue affecting our homeland 
security, and I'll be glad to answer any additional questions.
    [The prepared statement of Mr. Muleta follows:]

    [GRAPHIC] [TIFF OMITTED] T8118.048
    
    [GRAPHIC] [TIFF OMITTED] T8118.049
    
    [GRAPHIC] [TIFF OMITTED] T8118.050
    
    [GRAPHIC] [TIFF OMITTED] T8118.051
    
    [GRAPHIC] [TIFF OMITTED] T8118.052
    
    [GRAPHIC] [TIFF OMITTED] T8118.053
    
    [GRAPHIC] [TIFF OMITTED] T8118.054
    
    [GRAPHIC] [TIFF OMITTED] T8118.055
    
    [GRAPHIC] [TIFF OMITTED] T8118.056
    
    [GRAPHIC] [TIFF OMITTED] T8118.057
    
    [GRAPHIC] [TIFF OMITTED] T8118.058
    
    [GRAPHIC] [TIFF OMITTED] T8118.059
    
    [GRAPHIC] [TIFF OMITTED] T8118.060
    
    [GRAPHIC] [TIFF OMITTED] T8118.061
    
    Mr. Turner. Thank you.
    Mr. Devine.
    Mr. Devine. Good morning, Mr. Chairman and members of the 
committee. Thank you for providing me the opportunity to share 
my thoughts today on this important topic.
    In Missouri, I am involved in public safety communications, 
regional planning initiatives. I serve as the local APCO 
advisor, and I chair the Missouri Statewide Interoperability 
Executive Committee.
    The Missouri State Interoperability Executive Committee, 
with its participation from across the State, has made great 
strides in developing a locally integrated interoperability 
environment within Missouri. My most important duty is working 
for the Highway Patrol, or actually outside of my official job 
description. My description as patrol frequency coordinator has 
gradually evolved into an overall public safety communications 
resource for police, fire and EMS and local government concerns 
in Missouri sponsored by the State.
    These duties identify me as the initial contact and 
resource for all public safety communications issues, such as 
homeland security grant process and interoperable 
communications issues, State interoperability executive 
committee advocacy, regional planning, promoting a dialog for 
operational and technical interoperability solutions, frequency 
coordination, FCC regulatory topics and other issues, including 
updates, seminars and training.
    Prior to my appointment to this position at the State 
level, no one entity or person provided these services to 
Missouri's public safety community. This caused a lack of 
dialog that impaired each community's ability to serve its 
constituents. It is effective for interoperable guidance and 
administration to come from the State level of government in 
many instances, which has responsibilities throughout the 
State, not just in portions of it.
    Today I'd like to briefly discuss two particular 
communications outreach and planning mechanisms beneficial to 
public safety at the regional level, and how interaction with 
both the FCC and the Department of Homeland Security can 
improve the overall interoperable potential in each State. I 
generally look toward the Department of Homeland security 
through Project SAFECOM to promote training, implementation, 
direction and the encouragement of a consistent communications 
dialog at the local level and to the FCC to cerate the enabling 
regulatory environment that will public safety to best utilize 
its assigned resources and promote interoperability for its end 
users.
    The first mechanism is the mandatory development and 
expansion of Statewide Interoperability Executive Committees. 
Within the NCC committee, the FCC supported but did not mandate 
the creation of an SIEC in each State. The NCC has since 
recommended that SIECs be mandated by the FCC and expanded to 
include the administration of all interoperability spectrum, 
not just that of 700 megahertz.
    The expanded role of the mandated SIEC would allow the 
conclusions identified in the NCC to improve interoperability 
in other public safety bands. NCC recommendations on SIEC 
expansion and other interoperability issues are currently 
pending FCC action.
    In concern with SIEC development, the Federal Government, 
with support from the Department of Homeland Security, shall 
provide the States spectrum management training. This is 
consistent with conclusions reached in the recent MTIA report 
that indicates a lack of spectrum planning resource at the 
State level. MTIA previously provided a spectrum management 
program to States, but it is no longer offered. In many areas, 
receiving this training will initiate SIEC interoperable 
development in States and promote a dialog within States as 
well.
    The second issue crucial to the furthering of 
interoperability is the promotion of common national 
interoperable parameters and conditions that enable continuity 
and positively impact communications within the first responder 
community. These recommendations are all included in the NCC 
recommendations under FCC Docket No. 96-86. They are the 
development of statewide interoperability plans, the 
institution of standardized interoperability channel 
nomenclature, the requirement of standardized technical 
interoperable parameters and the utilization of standard 
incident management or incident command systems.
    The end result has public safety, after an implementation 
period, using managed nationwide interoperability channels from 
all public safety bands with common technical parameters and 
common channel names within a standardized operating 
environment. How these channels are used in each State is then 
documented and made available to other States and Federal users 
in the form of State interoperability plans to promote an 
interoperability dialog across the country which currently does 
not exist.
    The establishment of Federal, State and local 
communications planning and implementation dialog needs 
improvement. One method would be to establish an interoperable 
dialog between the Federal Government and State and local 
entities through memoranda of understanding. An MOU could be 
created between Federal users in each State outlining 
acceptable parameters for use between the parties and then 
allowing the States to distribute the parameters to the local 
communities. The State would then disseminate the MOU 
information and its conditions to local users through a new 
MOU. This method of sharing and interoperability for all users 
is outside the FCC's current rules in some spectrum, but it 
will allow more effective interoperable resources to the local 
user.
    States should also communicate with each other in the form 
of biannually published State interoperability plans created by 
their SIEC via Web access, such as Denver University's CAPRAD 
data base, which is being utilized as a planning tool within 
the 700 megahertz regional planning initiative.
    I recommend continued Federal dialog and outreach between 
DHS and planning groups, such as NIPSTICK and other State SIEC 
groups to help regional and local users become more aware of 
their needs and abilities regarding interoperability. At a time 
when significant grant moneys are being distributed to the 
local community, there is an opportunity for the Federal 
Government to require the standardization of certain 
communications parameters at the local level, in the 
implementation of interoperability resources as a condition to 
the grantor.
    The State of Missouri has used the Missouri SIEC as a 
resource to review grant funding and make recommendations 
regarding applications. The result is local users better 
equipped to expand their potential interoperability.
    Public safety communications at the local level has no 
required, structured, centralized management mechanism with a 
focus on interoperability. A suggested method of improving 
discussion between Federal, State and local users would be for 
Federal entities to use a State SIEC as a point of contact 
within each State. State contacts could then communicate with 
each other to achieve regional needs.
    In conclusion, interoperability in the public safety 
community starts and ends at the local level. Currently, the 
freedom offered to State and local agencies to implement new 
regulatory decisions in any fashion they deem appropriate often 
inhibits the very interoperability we seek due to each agency's 
interpretation of how those regulatory decisions should be 
implemented. Pushing good, positive rules into the local 
community, in the absence of followup, structure and 
enforceable guidelines, can inhibit interoperable 
communications. Supporting the communications needs of local, 
county, State and Federal users cannot be accomplished without 
an ongoing public safety interoperability dialog, resulting 
from a program in each State.
    Thank you, Mr. Chairman. I'm available for any questions.
    [The prepared statement of Mr. Devine follows:]

    [GRAPHIC] [TIFF OMITTED] T8118.062
    
    [GRAPHIC] [TIFF OMITTED] T8118.063
    
    [GRAPHIC] [TIFF OMITTED] T8118.064
    
    [GRAPHIC] [TIFF OMITTED] T8118.065
    
    [GRAPHIC] [TIFF OMITTED] T8118.066
    
    [GRAPHIC] [TIFF OMITTED] T8118.067
    
    Mr. Turner. Thank you.
    Mr. Nash.
    Mr. Nash. Thank you, Mr. Chairman. My name is Glen Nash. I 
am a senior telecommunications engineer working for the State 
of California, Department of General Services, where I have 
over 30 years experience in the design, installation and 
maintenance of public safety communications systems.
    I am a past president of the Association of Public Safety 
Communications Officials International, also known as APCO. I 
served as the Chair of the Technology Subcommittee of the FCC's 
Public Safety National Coordination Committee, served on the 
joint FCC/NTIA Public Safety Wireless Advisory Committee, 
served on the National Task Force on Interoperability, and have 
otherwise been very active on matters related to 
interoperability between and amongst public safety agencies. I 
am here today representing the State of California and as a 
general spokesman for the public safety community.
    Communications, and in particular radio communications, is 
a vital tool used by public safety agencies to exercise command 
and control of emergent events in the community. Those events 
range in scale from routine traffic stops by police agencies 
and calls to EMS agencies for medical assistance to large 
disasters such as the wildland fires experienced each year in 
California and in other States and the events our country 
experienced on September 11, 2001. Public safety radio is the 
mechanism by which operational commanders and government 
officials gather information about the event, deploy forces to 
respond to the event and direct the actions of our Nation's 
first responders. It also serves as a lifeline in protecting 
the safety of those first responders. Without effective 
communications, our Nation's police, fire and EMS personnel 
cannot perform their primary duties of protecting the American 
public's life and property.
    While the term interoperability has received significant 
interest since the events of September 11th, it is neither a 
new issue nor something that the public safety community has 
not been addressing for many years. Things are far from 
perfect, and there certainly are many ways that 
interoperability can be improved across the country. But let us 
not ignore the successes.
    In California, we have implemented mutual aid systems for 
many years. These have included the California Law Enforcement 
Mutual Aid Radio System, commonly called CLEMARS, in which the 
State contributed and licensed radio channels statewide that 
can be used by any law enforcement agency. All that a local 
agency need do is sign a standardized agreement regarding use 
of those channels, then program those channels into their 
mobile and portable radios. Upon doing so, they are able to 
talk with personnel from virtually any other law enforcement 
agency that has similarly joined its system.
    This system has been in existence since the early 1960's. 
And I am proud to say most, if not all law enforcement agencies 
in California are participants. Is the CLEMARS system perfect? 
No, it still suffers from technology problems related to the 
fact that the public safety agencies are spread across multiple 
frequencies that are mutually incompatible with one another and 
from training issues, both of which I will discuss in a moment. 
Also, it provides only one channel in each major band, which 
obviously would be inadequate in anything resembling a very 
large event.
    While we are working to resolve some of these limiting 
issues, the solutions will require the expenditure of time, 
effort and public tax dollars that are vitally needed in many 
other areas.
    Another success story can be found in the fire community. 
As many of you are aware, California suffers from several large 
wildland fires each year. Besides the obvious devastation 
caused by these fires, the effort required to fight these fires 
is tremendous. A single agency may deploy a thousand or more 
firefighters along with hundreds of pieces of apparatus, 
aircraft and logistical support from local, State and Federal 
agencies. The State, in conjunction with representatives of 
local fire agencies and representatives of the U.S. Forest 
Service and Bureau of Land Management, have developed a 
communications plan known as FIRESCOPE that lays out procedures 
for communicating with all these resources. The plan calls for 
the integration of frequencies licensed to the State and local 
agencies, along with frequencies controlled by the Federal 
agencies, and the integration of both the frequencies and the 
equipment from the National Interagency Fire Center to create 
an overall communications system that supports the efforts 
directed toward controlling the wildland fire. While this 
system has enjoyed great success, it too is being challenged by 
technological and training issues.
    I would like to mention two other efforts underway in 
California because they are being driven by local agencies 
coming together to develop a communications plan that addresses 
their response to events that occur within a more localized 
region. Those efforts are the Los Angeles Tactical 
Communications Systems and the Bay Area Tactical Communications 
System. In both of these efforts, command personnel from the 
local agencies are coming together to discuss the operational 
issues that must be resolved so that they can work together as 
a team on an event; to catalog the capabilities and limitations 
of their communications systems; and to develop plans that can 
be readily implemented when the need arises.
    These events, by the way, do not need to be large scale 
events. They could include a pursuit that moves from one 
jurisdiction to another or the automatic response of the 
nearest fire unit to a call rather than the unit within whose 
jurisdiction the call originates. If I were to characterize 
these events, I would have to say they can happen at any time 
and any place, often without warning. They start out as local 
response events and grow into something larger.
    I mentioned before that there were technological and 
training issues that limit public safety agencies and personnel 
at the State and local levels from implementing the ideal 
solution. What are some of those issues?
    First and foremost is an issue related to the radio 
spectrum. Local, State and Federal agencies operate across five 
major frequency bands. Each of these bands is mutually 
incompatible with the others. In some cases, individual 
agencies were able to select the band they used based upon 
operational advantages. But more often than not, the frequency 
band was determined by what was available at the time they 
built their system. In many regions of the country all the 
agencies have built their systems on frequencies that come from 
the same frequency band, thus they have an inherent ability to 
create interoperability, assuming that channels can be 
identified.
    There is a major problem with the interoperability spectrum 
created in the 700 megahertz band. Don't get me wrong, the 2.6 
megahertz of spectrum is a tremendous asset that will be useful 
in the future. But realize also that no radio currently in use 
by any public safety agency in America is capable of operating 
on those interoperability channels.
    Mr. Turner. Mr. Nash, your written statement will be 
entered into the record. Do you have any other comments you 
want to sum up at this point?
    Mr. Nash. No, that's fine. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Nash follows:]

    [GRAPHIC] [TIFF OMITTED] T8118.068
    
    [GRAPHIC] [TIFF OMITTED] T8118.069
    
    [GRAPHIC] [TIFF OMITTED] T8118.070
    
    [GRAPHIC] [TIFF OMITTED] T8118.071
    
    [GRAPHIC] [TIFF OMITTED] T8118.072
    
    [GRAPHIC] [TIFF OMITTED] T8118.073
    
    [GRAPHIC] [TIFF OMITTED] T8118.074
    
    Mr. Turner. Thank you so much.
    I want to go then to a series of rounds of 5 minutes of 
questions from members of the committee. I'd like to start with 
a question really to all of you that you can respond to.
    In listening to the opportunities and also the definitions 
of the problem and how you each have been, and the agencies 
have been working this issue, there does appear to be a 
distinction between the issue of equipment, what equipment 
needs to be put in place, and processes or systems. We've heard 
the term legacy systems and legacy practices.
    And in part, you have an equipment issue and in part you 
have a management issue. I'd like for you to talk about the 
management issue aspects of that. You certainly have issues 
such as, Mr. Nash, you mentioned the issues of culture of 
command and control. You have structural, local, State and 
Federal. That seems almost to be a greater impediment than the 
issues of just equipment.
    So you've approached this issue. Could you talk a moment 
about the issue of the practices, the management versus the 
equipment aspect?
    Mr. Jenkins. Well, I think that the equipment, from our 
perspective, follows the management. It's not the lead issue. 
It's the issue of what, after you've decided what you need, 
after you've decided what the gaps are, the equipment is the 
alternative solution. You're looking at what the alternatives 
are and how that equipment helps meet those particular 
requirements.
    But the equipment itself is a means to an end. It's not the 
end. And the really important part is being able to establish 
what the needs are and then what the gaps are. And those needs 
themselves follow from a command incident structure defining 
who's going to be in charge, who needs to share what 
information with whom under what circumstances in what kind of 
event. If that's not laid out, if that foundation is not laid 
out, the equipment issue is almost irrelevant. Because even if 
you have the right equipment, as we've said, one of the reasons 
we're suggesting a common nomenclature is, even if you have the 
right equipment, if I call it red channel two and you call it 
purple dot channel five, we don't realize that we can talk to 
each other, because we use different names.
    So these issues of being able to agree on what the 
nomenclature is, everybody knows, having these data bases that 
people will know, those are very important issues and they 
really are sort of external, if you will, to the equipment 
itself. And the reason that we're suggesting that the States be 
the mechanism is exactly what Mr. Devine said and others have 
said, is that to the extent to which local governments have 
developed their own, and local first responders developed their 
own systems, they've tended to develop them for their own needs 
and not looked across jurisdictions, looked on a regional 
basis. And the States are a mechanism that allow you to do 
that, that allows you to look beyond individual jurisdiction 
and how does it fit together.
    On a day to day basis, if I'm just responding to an 
automobile accident or something, this may not be much of an 
issue. But if you're dealing with a much larger event, like a 
wildfire that goes across multiple jurisdictions or a plane 
crash, or September 11th, then these issues that cross 
jurisdictions become very important in being able to look at 
them and have a mechanism in place, an incident command 
structure for how we're going to deal with that.
    So in our view, the management issues are fundamental and 
have to be addressed before you get to the equipment issues.
    Mr. Turner. Dr. Boyd.
    Dr. Boyd. We would agree that the human factors, which 
includes more than just management issues, has to do with all 
the cultural relationships at the local level; turf issues 
involving who's going to control the system, who gets to decide 
when you get to get on a channel other issues, have to be a 
first and key component of that. We think all of this needs to 
be approached through what we call a governance approach.
    And that governance approach needs to be one that begins at 
the lowest level and works up, so that the localities who own, 
operate and maintain the vast majority of the equipment and 
have the vast majority of the money and the vast majority of 
the people have a real incentive to be part of larger, county-
wide, State-wide systems. It has to be more than just going 
through the motions, just saying, you can come in and come to a 
meeting with me. planners have to listen to those users at the 
local level first. They're the people who are going to respond, 
they have most of the people--even when the State level is 
considered. So you have to start with a structure that builds 
from the bottom up in order to build a serious State-wide plan 
that everybody really wants to sign onto.
    Mr. Tierney made a reference to an $18 billion figure mark 
that came out a study some years ago by PSWAC. That study now 
is very old, and it only looked at land mobile radio systems, 
that is, the equipment that goes into a car and the equipment 
an officer carries. It covered none of the infrastructure. It 
covered none of the new towers, none of the new repeaters, none 
of the other things that would need to go with it.
    So one of the things you also have to understand is that 
another part of the problem really is a funding issue, because 
the local communities are going to have to come up with the 
money. They have to make a decision that they're going to help 
pay for some of this, which means that whatever strategy you 
develop has to be one that takes into account legacy equipment. 
We can't leave it out, even as we try to move in a coordinated 
direction to get to modern systems, because communities cannot 
afford to abandon these older systems.
    So the human management piece is first and foremost. The 
technology piece then follows almost naturally. But you can't 
lose track of either of them. You can't lose track of the 
fundamental costs of decisions that may be made at a higher 
level that don't meet the immediate needs of the first 
responder in their locality. They have to be part of however 
you design the national or the State structures.
    Mr. Turner. Mr. Muleta.
    Mr. Muleta. My colleagues here have explained the 
situation. I think the FCC, we have since the late 1980's been 
working on promoting interoperability while being cognizant of 
the fact that there is a lot of sort of local involvement in 
trying to not overly mandate a solution that might be over-
inclusive or under-inclusive. So what we've developed is a 
system in which we are asking States and the representatives to 
participate through these, like the National Coordination 
Committee to develop interoperability in effect allowing the 
local folks to opt into solutions that we're providing.
    So we think that's the right approach, and I support the 
statements that all my colleagues here have made.
    Mr. Turner. Mr. Devine.
    Mr. Devine. I think planning can't be underestimated. Often 
people talk about a national interoperability plan, and indeed, 
we have one. We have 50 individual plans that are stuck in 
somebody's drawer some place that we don't communicate across 
State lines or even in many areas within those States.
    In Missouri, I've got Kansas City and St. Louis who don't 
agree on much. I don't really need for them to do the same 
thing, I just need to identify with what each of them do that 
there is some commonality between them. They don't necessarily 
have to do everything the same, there just has to be some 
continuity. I think that dialog at that human level, as Dr. 
Boyd indicated, the planning level, is what promotes that. 
They're more than willing to share what they're doing. And the 
disparities are one thing. But to find that common thread that 
when people from St. Louis have to go to Kansas City, it's 
probably a drastic incident and there will be some commonality 
there.
    So it's all about local planning and getting them involved, 
not as much changing what people do but finding out what they 
do, identifying it, laying it all out on the table and finding 
where the common threads are.
    Mr. Turner. Mr. Nash.
    Mr. Nash. I totally agree with those comments. We've often 
talked about interoperability really as being a system of 
systems. And we take the local systems, we integrate them 
together, through a county-wide or State-wide overlay system 
that brings them together. You can then integrate that into a 
nationwide system. I think one of the things we need to keep in 
mind is that we're not looking for the ability of the officer 
on the street to talk to the firefighter on the end of the 
hose. That kind of communication usually is, quite frankly, in 
appropriate.
    We do need to have a way for commanders to integrate and 
talk amongst themselves. And just as a good example, again, of 
something that happened just recently, the funeral of President 
Reagan in the Ventura area brought a lot of people and a lot of 
resource requirements to a very small community. But they 
developed a plan, they worked it out, they had some ideas in 
place. And it wasn't a matter that everybody talked directly 
with each other. But they all had an agreement that they would 
communicate with each other.
    And there was a system of systems there with different 
agencies operating on different systems, performing their part 
of the job and doing it very effectively and for some very good 
reasons. For example, the Secret Service and the FBI would not 
want to be integrated directly with locals, for security 
reasons. So there are some very valid reasons why we need to be 
thinking about a system of systems that allow us to communicate 
at the levels at which it's appropriate to communicate.
    Mr. Turner. Mr. Tierney.
    Mr. Tierney. Thank you all for your testimony here.
    Dr. Boyd, I understand that within the Department of 
Homeland Security now there is the Office of Interoperability 
and Coordination, but it seems tom e that the mission and the 
structure of it may not be completely defined. There's also 
SAFECOM, there's the Office of Domestic Preparedness and the 
Office of State and Local Coordination and Preparedness. Of 
those groups, who's in charge of this interoperability aspect?
    Dr. Boyd. The Secretary has indicated two things. One is, 
at the executive level, that SAFECOM is in charge of 
accomplishing its three fundamental missions, which are a 
national architecture, a standards process and the coordination 
of Federal activities. So direction from OMB has gone in the 
passback to every agency to include that common grant guidance.
    With the creation of the Office of Interoperability and 
Compatibility, the Secretary has made clear that 
interoperability management and interoperability standards will 
be the responsibility of the new office. To that end, we work 
directly with the Office of Domestic Preparedness, with the 
State and local government coordination office and in fact, 
with all of the activities within the Department.
    Mr. Tierney. Do you have a target date for completing your 
work?
    Dr. Boyd. Let me break that into two parts. Our target date 
for when the office is fully operational is not later than the 
end of this fiscal year. The reason I put you off on the other 
is that interoperability is something that's going to take a 
very long time to accomplish correctly nationally. So I don't 
want to provide an end date for that. In fact, one of my 
favorite stories is to point out that when I was first 
commissioned as second lieutenant in the U.S. Army--and I won't 
say how long ago that was, but it was quite a while--the 
Department of Defense had really decided that DOD was going to 
become interoperable. I retired from the U.S. Army after a full 
career 12 years ago, and DOD is today almost interoperable. 
That's a single department, with four Federal agencies, funded 
essentially by one committee. And still, more than 40 years 
later, they're not fully interoperable.
    So this is going to take a while. We don't intend to take 
40 plus years. We think we can do it a lot faster than that. 
But it's not going to happen in one or 2 or 3 years either.
    Mr. Tierney. I wouldn't expect it to happen as rapidly as 
that, but I'm certainly discouraged to hear that it may take as 
long as you think.
    Let me ask you, your first date was that for the target 
date of actually collecting the data? Do you have a date where 
you figure that you're going to get all the data you need to 
start working with?
    Dr. Boyd. We expect to release the RFP, the solicitation to 
bring on board the research activity that will actually do the 
baseline research this month. So I would expect we would have 
an award before the end of this fiscal year. We'll have the 
report back probably mid to late fiscal year next, in 2005.
    Mr. Tierney. Mr. Jenkins, what does GAO think about that 
scenario and that process? Does that seem to be moving 
reasonably on a good timeframe?
    Mr. Jenkins. It's difficult for us to make an assessment of 
that. Part of the reason is what Mr. Boyd said, the real 
functions of this office, what its funding is going to be, what 
its authority is going to be, what its structure are going to 
be is still being developed. So whether or not they can do what 
Dr. Boyd says and do it within a particular timeframe depends 
very much on how that office is structured, what its authority 
is, what its funding is. Those are all open questions at the 
moment.
    Mr. Tierney. Mr. Boyd, what do you think about that?
    Dr. Boyd. That's part of why I broke it into two parts: the 
when we'll have the office stood up rather than when we would 
complete the mission. We had a meeting just this week with the 
Assistant Secretary for Science and Technology so that we can 
lay those dates out. We have put in a mark for 2006--we're 
little late for the 2005 process, because the decision to 
create the office was made later--so now we're dependent for 
how much we're going to be able to do in 2005 on what happens 
in the final appropriation this year.
    Mr. Tierney. Thank you. Thank you all for your testimony.
    Mr. Shays [resuming Chair]. First, if you gentlemen would 
like to take your coats off, feel free. I'm serious.
    What I'd like to do, Mr. Tierney, do you have other 
questions you'd like to ask?
    Mr. Tierney. No.
    Mr. Shays. OK. What I'd like to do is ask the professional 
staff, Grace Washbourne, to ask a few questions, then I have 
questions of my own.
    Ms. Washbourne. Thank you, Mr. Shays.
    Mr. Devine, you talked about the importance of having an 
understanding about the state of interoperability or the state 
of communications that are around you, whether it's in your 
State or across borders. I understand, Dr. Boyd, that DHS 
intends to assess the state of interoperability by the year 
2005 by means of a nationwide survey. Can you tell us a little 
bit about what questions this survey will contain and how does 
DHS plan to establish a baseline measure of first responder 
communications capabilities nationwide?
    Dr. Boyd. Part of what the research will be responsible for 
is developing the specific questions to be asked in the fields. 
In general, these are the kinds of things that we're asking 
them to do as part of this baseline. We want to know the degree 
to which they actually have interoperable equipment, if they 
actually have plans for interoperability, the degree to which 
they have both agreements with adjacent jurisdictions and the 
degree to which they're actually able to communicate with them. 
And we're also going to ask them about future funding plans, 
where they're either putting together plans they're going to 
propose, or they're putting together plans which they actually 
knows will be funded.
    This will probably be a scientific sample survey, but it 
won't be a written survey. I have a bias against written 
surveys because in the Justice Department, we learned very 
early on that if you use a written survey, it tends to go to 
the person the agency can spare to fill the survey out, because 
they get lots of requests to complete surveys.
    So we'll actually be putting teams on the ground, going to, 
looking at and helping agencies to identify what this model 
level of interoperability is. Because we want to be able to 
characterize where the Nation is now so that we actually have a 
starting point against which to measure our performance and 
against which we can take the statement of requirements and 
figure out what the real shortfalls are nationally, so when we 
come back to you we can answer some of those questions that 
Congress is regularly asking us, and that is, what is the scope 
of the problem and what is the cost of fixing it. No one can 
reliably do that now. We will be able reliably to make that 
kind of identification by the end of next year.
    Ms. Washbourne. I know a data base will probably be highly 
technical. Is it the FCC or DHS that will be responsible for 
this data base, and who will fund it and upgrade it and require 
that people put information in it that's helpful in their 
communities, since it's going to take long for us to get our 
act together on this?
    Dr. Boyd. Well, there are two data bases that we're 
concerned about. One of them is the data base for the baseline. 
We will create that data base. Out of it we intend them to 
create as well a set of self assessment tools that localities 
can use to determine for themselves what their interoperability 
gaps are. Then we intend to try to create a voluntary reporting 
process, we have no authority to require one, but to ask the 
States if when they're able to collect and use this 
information, they would also share it with us.
    The other data base is the CAPRAD data base, which of 
course is a frequency data base. We intend to continue to 
support that.
    Ms. Washbourne. Mr. Muleta, do you have a responsibility to 
collect this data or are you interested in it?
    Mr. Muleta. I think, we have a licensing data base in which 
as we issue licenses we record the information, the sort of 
core information as to who the licensee is, whether or not 
they're a public safety agency. Because a lot of different 
rules and regulations are triggered by whether, under the 
Telecommunications Act, based on the definition of the 
licensee.
    I think the underlying issues are data bases don't go to 
actual use and actual types of systems that are being used. We 
can sort of guess fairly well if somebody's signing up for 800 
megahertz or for 450 what kind of systems they're using. But 
their technology choices and things like that are not recorded, 
they're not required because we don't go to regulating specific 
types of equipment. We do, as you use certain channels, we do 
have that.
    I think we also try and balance sort of mandatory reporting 
of this, because we have an obligation not to be overly 
burdensome on the localities that are using it. So we are 
using, like I said earlier, the sort of planning and the State 
coordination committees to help us develop and provide opt-in 
information to the extent people feel this is important that 
they want to provide us with that education. That's the process 
we've been using in the past.
    Ms. Washbourne. Thank you. I have one more question for all 
of you. With the recent advances in technology and the push 
from the FCC to implement systems having greater spectral 
efficiency, public safety agencies will be migrating to digital 
technologies. Mr. Nash, in your written testimony you stated 
that most digital technologies currently being marketed are 
mutually incompatible and therefore just designating channels 
or allocations for public safety users is not enough, that for 
interoperability to occur, one and only one digital technology 
can be employed on each channel. And the FCC must regulate 
technical rules for all public safety bands.
    Can each one of you comment on Mr. Nash's observation?
    Dr. Boyd. We like the standards based approach, because we 
believe there needs to be some minimal level of communications 
capability. We would, however, encourage some caution in 
establishing any kind of standards or rules that are too rigid, 
because we don't want to interfere with innovation.
    The approach we likely would take is to try to ensure that 
as people build new systems, that they ensure that they also 
build in a capability to be interoperable with other 
disciplines and other jurisdictions. But we would not want to 
limit too much what the new technologies, which may be 
dramatically improved, in the future if we don't cripple 
innovation.
    But it's conceivable that something we haven't thought of 
might also come along. So we wouldn't want to limit that 
innovation, even though we would want to make sure that they 
took into account interoperability requirements as they put the 
systems in place.
    Mr. Muleta. As I stated in my testimony, starting January 
2005 we will require new systems that have interoperability 
built into it. I think that the sort of bigger issue is 
something that, as part of both the personal level 
coordination, there's a need to do sort of backward 
compatibility. Because a lot of local authorities have sort of 
long term funding cycles. So you sort of get a bond issue and 
it takes, it's designed for a 10 year system. And we're in an 
environment for which the technology for radio communications 
is rapidly evolving. It's down to about 3 to 5 year life 
cycles. So part of the challenge is, if you mandate something, 
and say you have to move in 5 years, you might leave a whole 
bunch of people behind, because they might not be in the right 
funding cycle to be able to support these things.
    So we have to deal with legacy systems. So the Commission 
has in the past adopted transition mechanisms that have 
provided a long lead times and we hope, through all of the 
initiatives that Dr. Boyd and other folks, both at the State 
and local and Federal level are doing, that we can provide 
positive incentives for people to adopt technologies a lot 
faster. Our rules are really designed to get that as an opt-in 
measure to get everybody to buy in and move along as fast as 
possible.
    But we are concerned not only about new technologies, but 
making sure that old technologies can work with new 
technologies.
    Mr. Devine. The identification of the baseline and the 
interoperable quotient, as it were, is something that's 
important. Different areas, California has different needs than 
Missouri than Connecticut. It's important that while we find 
the common thread we don't necessarily try to put users in 
those areas into boxes that aren't appropriate for them to be 
effective.
    So the systems that are out there, funding, as Mr. Muleta 
indicated, you've got fire departments that generate revenue 
from bake sales. You've got to keep in mind their funding 
mechanism, and if they need to be elevated to a different 
interoperable baseline, then they'll need some assistance in 
funding. But every area has to be looked at as its unique needs 
move on. And then of course look toward the future and whether 
technology will be available for them.
    Mr. Nash. It's my comment, so I obviously support it. I 
think we are faced here with this dilemma that we move to 
digital technology, it is very desirable to be able to migrate 
our systems with the advance in technology. But we're also 
faced with the reality of government funding. And government 
funding at a local level, where money is just not available. We 
often talk about a 10 year replacement cycle. The reality, when 
you get down into the very small communities, is yes, they have 
a 10 year replacement cycle, they're buying the equipment that 
the State just discarded after being 10 years old. So their 
equipment is now 20, 25 years old.
    When you're dealing with those kinds of time lines, it's 
critical that you have a stable standard that you're using for 
interoperability purposes. Because as we look to 
interoperability requirements and bringing together people from 
not only widely dispersed geographic areas in a very large 
event, but we're bringing together people from many different 
levels of jurisdiction on a localized basis.
    If we look simply at a wildland fire, those fires often, 
they occur in forest lands. The first people on the scene are 
often a volunteer fire department of the people that live in 
that community. They are then augmented by State and Federal 
forces that come with more resources. But a large number of the 
people there are, they're local volunteers, they don't have the 
money to be buying equipment every 3 years.
    So we do need that stable level of interoperability. We 
need to set the standards, and we need to have a process that 
says yes, we're going to review those standards and 
periodically update them. But we need to give serious thought 
to the impact that a change in the standard is going to have on 
the broad community that is using it.
    Mr. Shays. At this time the Chair would recognize 
Congresswoman Watson.
    Ms. Watson. I want to thank the Chair. And also the 
gentlemen at the table for providing us with what I feel is 
most needed information.
    I represent Los Angeles, California. And Mr. Muleta, I am 
addressing my comments to you and I would like to extend an 
invitation to possibly all of you. Being a part of Pacific Rim, 
and the city of Los Angeles, the largest city in our State, as 
Mr. Nash knows, we have a lot of vulnerability. I hosted a 
meeting at the Culver City city hall last year where we brought 
together the first responders. Culver City is in my district as 
well.
    And we were talking about a radio and that will be used for 
homeland security, for first responders independently of the 
others. And I suggested to them that we look at our major 
organizations beyond first responders, like school districts 
that roll out hundreds of thousands of students per day, and 
being able to communicate with enroute and being able to 
communicate with these school districts. Because if there is a 
biological attack, for instance, they certainly are in 
jeopardy, and I would think that those who meant to do us harm 
would probably go to places where the most people congregate. 
We want to tie not only first responders together but other 
large organizations.
    So Mr. Muleta, would you comment on what kinds of 
communication systems are already in place? We feel that we, 
being so far to the west, we're the last to receive our full 
funding for homeland security. They tell me it's in the 
pipeline, I want it there at the destination. And we need to 
have a system. Our State could be divided up into three States, 
Mr. Nash knows that well. And we're at the southern part of the 
State. But we are the major city, like San Francisco is the 
major city in the midland part of the State.
    So it's absolutely critical that we focus on securing our 
communications. And I'll just, in my comments for now, the fact 
that on September 11 my office was at Carpet Point, which is 
near the airport, and we were evacuated. The plane of course 
never reached its destination. But it was so sensitive, that 
area was so sensitive that they evacuated every facility near 
the airport.
    So who knows where and when the next attack will be? But I 
know now we need to look at our communication systems, and I'd 
like you to comment, please.
    Mr. Muleta. Thank you. I spend a lot of time in California. 
I've built a personal relationship with one of the public 
safety officials in Los Angeles, and also with the folks in San 
Bernardino County and Mr. Nash here as well. The issue that you 
talked about is, do we have systems for dealing across other 
organizations that influence the public safety system, such as 
schools and other things. The FCC is looking comprehensively at 
how all these systems interact with each other. One of the key 
steps is not that there is not a lack of spectrum. I believe 
most school systems have probably a private wireless system 
that they use to communicate with their buses and things like 
that.
    I think the key step that's actually needed is something 
that we've all focused on here, which is sort of integrated 
planning, so that if an incident takes place, I was in Pasadena 
in April and there was an incident at a school. I was watching 
it on TV, in which somebody had come in with a gun or something 
like that, and the whole school system was shut down. So you 
had all the worst possible kinds of things, parents trying to 
get their children, schools under lockdown and nobody knowing 
what the incident was. All you had were these terrible visual 
images.
    I think yes, it's necessary. So I think there are enough 
resources and enough communication systems available, but 
what's really needed ultimately is a plan that says what do we 
do with our children if we're under a lockdown situation, and 
how do we communicate that to all the commanders that need to 
take action, whether it's fire department, it's hazmat, it's 
Federal, State, local, police, fire, whatever it is.
    So I do think there are enough resources, but the planning 
around the kinds of incidents we have to worry about is, I 
think, probably the most important ingredient. Part of what we 
have been driving at the FCC is to force and sort of opt in all 
of the organizations that are involved to participate through 
the statewide planning. Because that's where it's got to start. 
You've got to have all the regional groups understand, here are 
the kinds of threats, here's how we respond to them and here's 
all our communication facilities, such as the baseline that Dr. 
Boyd described. How do we make it all work for us seamlessly 
the day we need it.
    So I believe that thinking is beginning to permeate across 
the 40,000 public safety agencies and all of the things we've 
talked about today will encourage that and help that along.
    Ms. Watson. Thank you for that.
    We are used to all kinds of natural disasters, we throw an 
earthquake, we have a fire going here and we have floods when 
it rains. All these things we get used to, and we do a pretty 
good job in responding. The sheriff in L.A. County started this 
dedicated radio band. And when we met last year, I suggested 
they bring other organizations. So I really need you to 
probably come out again and let's do it. I think a dedicated 
radio band, because you don't have a television always 
available, but you can have a transistor radio. But a band 
dedicated, so nothing else comes on that band but responding 
and directing under homeland security.
    It has already been started by our county sheriff, Sheriff 
Baca. But I think we need to have other entities brought into 
it. And I would be willing to hold a meeting, I did tell them 
I'd followup with a meeting, bring some of the Feds in to talk 
about it, and I'd like to invite you to take part in that and 
we'll talk.
    Mr. Muleta. I'd be happy to participate. Thank you very 
much.
    Mr. Shays. In my community that I represent, the Fourth 
Congressional District in Connecticut, it's near New York City, 
it's 17 towns. A few years ago we had a tabletop exercise in 
Bridgeport, Connecticut. The thing that was most stunning, it 
was a great tabletop exercise, lasted 2 days and had about 200 
participants. It was really amazing. We had a chemical 
explosion on an Amtrak train in Bridgeport, and we had people 
who were first responders become ill and some of them were 
theoretically killed.
    But the thing that came out there was, the Department of 
Health had no communication, forget whether it was 
interoperable. And it was stunning, because they were a huge 
part of the challenge.
    And we had another tabletop exercise in Stanford, 
Connecticut, and there it was an explosion at the railroad 
station that was so close to the railroad tracks, obviously, 
but also I-95, that both became inoperable, the transportation 
network. The thing that was so stunning in that one was that 
the Department of Education wasn't even at the table. And the 
first thing that came up, in the middle of the day, was all 
those workers who wanted to find their kids. And there was no 
communication available to call the schools, to direct and so 
on.
    It pointed out the value of these tabletop exercises, both 
communities are a lot better off because they've gone through 
that. But it also pointed out some major weaknesses.
    The GAO, in their report, says lives of first responders 
and those whom they are trying to assist can be lost when first 
responders cannot communicate effectively as needed. So we're 
obviously talking just about first responders, we're talking 
about their mission. It may fail.
    And then GAO recommends that the Secretary of the 
Department of Homeland Security continue to develop a 
nationwide data base and common terminology for public safety 
interoperability communications channels, two, assess 
interoperability in specific locations against defined 
requirements and, three, through Federal grant awards, 
encourage States to establish and support a statewide body to 
develop and implement detailed improvement, and four, encourage 
that grant applicants be in compliance with statewide 
interoperability plans once they are developed. Those are just 
pretty sensible recommendations.
    I'm curious, and I want a candid answer, I know it would be 
honest, but do you think that if we had this hearing in 5 years 
that we would be a long way from where we are today? Do you 
think honestly, given the challenge and given the resources and 
given the attention that we'll be pretty close to where we're 
at right now? And 5 years from now, if you say it's different, 
I want you to tell me what will be different. I'm going to 
start with you, Mr. Jenkins.
    Mr. Jenkins. I think in the absence of some changes that 
will be not much further along than we are, and those two 
changes that have to be made, or one is that there has to be 
some clear notion of how all the participants are going to get 
together to address this issue.
    Mr. Shays. How the what get together?
    Mr. Jenkins. How all the participants, Federal, State, 
local, first responders get together to address this issue in a 
comprehensive, coordinated way. There's still not a real way to 
do that. There is some progress that has been made, but there 
is still not a real way to do that.
    This Office of Interoperability and Compatibility can 
possibly----
    Mr. Shays. OK, let's go to the next one. Go to the next 
one. That's one. It will depend on how all the participants get 
together.
    Mr. Jenkins. How all the participants get together, if they 
can overcome these cultural barriers. The cultural barriers 
being that, if it's not my system, I don't want to play, 
essentially. I want to be, or if I can be in control, I want to 
play. But if somebody else is in control in a particular 
incident, I don't want to play.
    Mr. Shays. OK, that's one. What's the other one?
    Mr. Jenkins. The other one has to do with setting time 
lines, target dates. There need to be very specific target 
dates for getting certain tasks done. And that there has to be 
some sort of carrot and stick approach in terms of 
accomplishing those tasks. That's one of the reasons we 
recommend that grant guidance is one mechanism in order to do 
that.
    For example, right now it's not possible really for people 
to not be able to buy equipment because they don't have a plan. 
So we don't recommend that you not get the money to buy 
equipment because you don't have a plan. But there should be a 
point in the future where if you don't have a plan, a clear, 
comprehensive plan, then you shouldn't get money to buy 
equipment.
    Mr. Shays. Before I go to the others, who can get all the 
participants together? Whose shoulder does that rest on?
    Mr. Jenkins. In terms of getting the people together, right 
now it rests on the States and Federal Government together, I 
think.
    Mr. Shays. I may not hear you well. But I want to know, is 
it like everyone's in charge so no one's in charge? Does 
someone, if a commission was looking back 5 years from now and 
they were saying, well, nothing happened, would they be able to 
identify one person at this table or one organization, say, it 
was your job to bring people together? Or is it just not 
defined? Is that part of the problem?
    Mr. Jenkins. I think it's the latter. I don't think it is 
defined. It is not really defined who is in charge and what 
their authority is to make it happen or to get people together. 
It's a very amorphous thing.
    Mr. Shays. Is that a failure of our designing the 
Department of Homeland Security? Because the Department of 
Homeland Security is clearly responsible.
    Mr. Jenkins. I think it's partly inherent in the structure 
of it. We have some work ongoing now in terms of how the 
Department is trying to look at and implement an all hazards 
approach in its programs across the Department. But there are 
instances where it's difficult to say who's in charge. When we 
were doing our work on this job, the report that was issued 
today, there did seem to be some disconnect between ODP and 
SAFECOM with regard to a couple of projects, the ODP project in 
Kansas City and the SAFECOM project in Virginia.
    Mr. Shays. OK.
    Mr. Jenkins. Those two efforts did not seem to be 
coordinated.
    Mr. Shays. I'm really happy I asked the question I asked, 
I'm happy you gave me the answer you gave, if it's right. 
Because it depends, I don't want to be here--I want to be here 
5 years from now. Let me say that again. I would like to be 
back. I would like to be here 5 years from now, but I don't 
want you all back here 5 years from now saying the same thing.
    And so, Dr. Boyd. The question is, where will we be, will 
there be much progress in the next 5 years, and if not, why 
not?
    Dr. Boyd. I think the answer to that is that things are 
already significantly different. Let me talk a little bit about 
my history with interoperability. Back in 1993, while I was 
still in Justice, we thought it would be useful based on what 
the public safety guys were telling us to create an 
interoperable solution for law enforcement, just for law 
enforcement.
    Mr. Shays. When was this?
    Dr. Boyd. This was in 1993. And we decided we would try to 
do it in a single county, just to see what was involved in 
doing it, to see whether it was feasible to achieve 
interoperability in a practical way because it had already been 
identified, a considerable time before that as a fairly serious 
issue.
    We worked with the Navy the fire dispatch center, who 
provided us a panel on the condition that we would provide the 
funding to implement a fairly straightforward and fairly 
primitive switching system which nevertheless, provided more 
interoperability than existed in the county. Implementing the 
technology took about 30 days. Getting the players in the 
county to work together--the local, State and Federal players--
took 2 years. That was just to get everybody to agree they 
would be part of it.
    Now, let's move forward--at that time, the money I had to 
use to fund that was general money that we could scrape off 
other programs. Now, let's move forward to now. DHS stood up, 
of course, in March. We just took formal responsibility in S&T 
for SAFECOM in July.
    Here's how dramatically things have changed. At the 
direction of the Secretary of Homeland Security, we have a 
program called RAPIDCOM 9/30. What we've been asked to try to 
achieve, is a command level incident based interoperability 
capability for emergencies, something the footprint of about a 
Twin Cities, and to be able to do that by the end of this year 
in the 10 cities where the intelligence tells us the threat is 
greatest. We're not going to stop there, but that's where we're 
going to try to be by the end of September.
    Mr. Shays. You're losing me a little bit. Where is this 
story going?
    Dr. Boyd. The point I want to make is now when we go to 
these cities, we're accepted immediately by all the players who 
are involved. All of them want to work with us to fix the 
problem. There is, I think a much, much better understanding of 
the importance of interoperability, and of course, we've had 
interoperability money from Congress for the last 2 years for 
the first time. Before there was never any money designated 
specifically for that.
    So I think you've seen some dramatic changes. And in the 
Department, with the creation of the Office of Interoperability 
and Compatibility, I think you're looking for the first time at 
the development of a serious central office that's going to be 
responsible for pulling all of these things together.
    Mr. Shays. OK. I'm going to come back to you, but I want 
you to respond to Mr. Jenkins' comments about it will depend on 
if we get all the participants together, and that we need to 
set targets and dates. I want you to tell me who gets all the 
participants together.
    Dr. Boyd. We frankly think that it's in large measure our 
role to bring together folks at the national level, at the 
Federal level, and to provide a model to help the States 
actually bring people together in their States. In the State of 
Virginia, for example, we were asked to come in and help to use 
the SAFECOM model to bring folks in from the bottom up in the 
development of a model State interoperability plan for 
Virginia. We'll be publishing that report probably within the 
next month or so.
    And we hope to use Virginia as a model that we can provide 
to others, in particular to those States that don't yet have 
statewide interoperability plans, to help them understand----
    Mr. Shays. It makes me a little uneasy though, as I think 
about it, you were asked. I mean, it's nice you were asked. But 
if you weren't asked, you wouldn't have done it. And that's 
what makes me uneasy. And it may be you weren't given the 
authority.
    Dr. Boyd. We have no authority. We had to be asked in this 
case, because we have no authority to cause any of these things 
to happen.
    Mr. Shays. Mr. Muleta.
    Mr. Muleta. I'm a glass half full kind of guy. So I have to 
tell you, actually, I think in 5 years at least at one level we 
will have a lot of success, which would be on the planning 
level. I think there is a wide level of recognition across all 
of the people that are involved that planning is integral and 
we have to do all the things we've been talking about.
    I think the actual systems implementation is a very long 
cycle. I don't think in 5 years it would be fair to actually 
even measure whether we're successful or not. I think we can 
look at the highest density population, New York City types of 
areas, and we can actually probably make some measurement, 
Kansas City, L.A. are all places we can probably see some 
significant advances in terms of systems implementation.
    But on the planning level, I actually do think 
interoperability is something that all of the public safety 
officials are always now talking about, whether it's e-911 
interoperability or public safety radio interoperability. It is 
a focus of all of our attention. And that is, primarily because 
I think Congress is now focused on it and has provided the 
funding, has provided the guidance.
    Mr. Shays. I thought you had the capability to clear bands 
and to make some extraordinarily significant decisions that 
would protect communication bands.
    Mr. Muleta. I think we're already putting those in place 
already. However, I don't think we can compel any one 
individual actor whether or not to use their system. So if they 
decide to use it, yes, our rules, for example, 700 will provide 
that mechanism for doing that.
    Mr. Shays. Is that the be all and end all, or is that just 
an indication that you did something dramatic that was helpful 
and that you could do more of that?
    Mr. Muleta. I think we need to do more of that. All of the 
FCC decisions are driving toward that. The focus on the States 
for planning purposes, the issue of moving to mandatory, I 
think one of the core issues that Mr. Devine mentioned was 
should we make State planning mandatory. It's under our system 
of government, mandating that the States do something is 
something that I think requires close, careful deliberation. I 
think Congress can also be helpful, like I said, by providing 
funding and guidance. We will do what we're authorized to do 
under the Communications Act.
    Mr. Shays. If we just see progress in terms of planning in 
5 years, I'll consider that a gigantic failure. It's got to be 
more than just planning in 5 years. And the glass if half full 
to you. But I don't think the glass would be half full. I think 
it would be one quarter full.
    Mr. Muleta. If I can respond to that. I have, there are 
40,000 public safety agencies, different geographies. So I just 
want to make sure that we set out reasonable targets for folks 
to achieve, if we plan. I would say that's 80 percent of the 
issue. For us, 80 percent of the issue comes to people not 
knowing what to do when an incident happens.
    Mr. Shays. But right now you have 40,000 agencies that are 
planning and implementing. And if they're just waiting for you 
to plan, it just strikes me that they're going to be 
implementing bad things.
    Mr. Muleta. I think we're all in agreement, sir, that the 
planning today is uncoordinated. When I say planning in 5 years 
will be the fact that everybody here on the table can actually 
hopefully pull out and say, here's the incident response and 
the systems that we're all using, the baseline is there and 
everybody can work off of that. I think that's a different type 
of planning than what's done today. What's done today is very 
local, doesn't take into account all the types of incidents 
that we have to worry about. I think if you look 10 years back 
and say, what were we worried about, it would be a very 
different set of things locally than what we do today. That's 
why I think in 5 years it will be a significant achievement for 
us to get the planning right.
    Mr. Shays. Thank you. Mr. Devine and Mr. Nash, I'd like you 
both to jump in. Where are we going to be in 5 years, as you 
see it now, not trying to be optimistic or pessimistic, just 
realistic.
    Mr. Devine. I'll go first. To me, it's directly 
proportional to the mechanisms and the way we do business. If 
outreach and dialog are increased and, such as Mr. Muleta 
indicated, the planning, when a State has to create a plan, and 
invites the local people to it, that's far more receptive at 
the local level than somebody saying, you will do this. When 
it's an inclusive environment and they come and they want to 
participate in the creation of that plan, I think all of a 
sudden you're ahead of the game, because now people want to 
contribute and they realize that in the contribution, there's a 
betterment and something for them in it.
    So in that type of mandatory planning, I think all of a 
sudden now you've got a dialog. Without the dialog, we will be 
at the same place we are now in 5 years or worse. Any dialog 
and outreach is an improvement. Then people begin to realize, 
you know, we have these things in common, and the only thing 
that stopped us from identifying that previously is because we 
never talked to each other.
    Mr. Shays. OK, let me just say to you that Senator Nunn 
said that, I'm describing a little bit of progress here, is 
what, people are starting to talk. But Senator Nunn said, a 
cheetah chasing a deer, a deer running away from a cheetah may 
be running in the right direction. The question is, how fast is 
it running and how fast is the cheetah running. I'm not 
encouraged by what you're telling me. I want some concrete 
sense of where we are today versus where will be, then which is 
more than just that we're communicating with each other. What 
that says to me is things are so pathetic that gosh, if we just 
started to talk with each other we would be a lot better off.
    Mr. Devine. I think that's the greatest impediment, 
frankly. The lack of dialog is non-existent.
    Mr. Shays. But the dialog is a process to get to something 
else. And you're telling me that we don't even have the dialog.
    Mr. Devine. Correct. What I'm saying is once the dialog is 
created, I think we'll find that in many areas, they are not 
too far part, the solutions aren't that far away. But until 
it's ever communicated, they'll never realize that.
    Mr. Shays. OK. Mr. Nash.
    Mr. Nash. I would agree. I think what's going on right now 
is that there are several funding programs----
    Mr. Shays. You would agree with what?
    Mr. Nash. I don't think things are going to be much better. 
In some ways, I think they could be worse, because we think 
they're better. And that's what concerns me, is that funding 
programs today are very short cycled. People are throwing money 
at it. They're buying equipment based on some salesman's 
promise that it's going to make things better. Yet they really 
don't understand what the problem is, or how the solution fits 
the problem. But they have a solution. So now they believe they 
have it taken care of. And that's what really concerns me.
    I think we really do need some serious level planning, and 
we need to have people sit down and whether it's tabletop 
exercises or what it is, that you sit down and work through 
some of these things, and you figure out who do you need to 
talk to and why do you need to be able to talk to them. Then 
you look at how can I do that. It is not necessarily everybody 
together on one big radio system. Because quite frankly, one 
big radio system, where everybody's trying to talk at once, you 
have no communication.
    I mentioned that I was recently at a presentation about the 
communications aspect of President Reagan's funeral. Something 
that really caught my attention there was, the comment was made 
that the different agencies came together and they agreed to 
communicate with each other. That was the essential point. It 
wasn't a matter of they were all on one radio system or that 
they could all talk to each other. They agreed to communicate 
with each other. And in some cases that meant they were in 
different rooms of a building, they were in different trailers 
parked around that building, they were on different radio 
systems.
    But it all came off very well because they had agreed to 
communicate with each other and expressed their needs, and 
asked each other for help to do those things. That's what's 
critical. I really think the planning aspect of it is very 
critical, and we need to support the planning aspect and get 
not just public safety officials, but as you mentioned, when 
you deal with a big disaster, it goes beyond simply police, 
fire and EMS. You now have utilities involved, you have the 
telephone companies, you have businesses, you have the schools, 
you have the hospitals, you have health care officials, you 
have disaster organizations. It gets huge very quickly.
    Mr. Shays. Well, I'm left with the fact that 5 years from 
now, it's not going to be all that different. And I'm a pretty 
optimistic person. Because what I think is happening right now 
is, I think the Department of Homeland Security has to exert 
authority almost like the courts did a long, long time ago, and 
then have someone say they don't have the right to do it. They 
have to just, I think when I voted for the Department of 
Homeland Security, I voted for believing that we had this huge 
challenge and that the Department needed to be there to get all 
these disparate players cooperating.
    So that's one view I have. The other view I have is the 
FCC's got to make some decisions. And every year they wait, 
it's going to be more costly. And that they are going to be 
tough decisions, and they are going to be criticized by a lot 
of people. You're going to be criticized anyway.
    So that's kind of what I'm getting from this panel. I mean, 
I've got a lot of important information, but that's kind of 
what I'm left with. And it tells me I think what our committee 
could, the full committee could be recommending when we write a 
report.
    Any comment? I'd like to get to the next panel. This room 
is going to be used at 2 by another subcommittee. There's lots 
more we could ask. Is there anything that any of you would like 
to put on the record? Mr. Devine.
    Mr. Devine. Yes, Mr. Chairman. Mr. Muleta indicated earlier 
that with regard to SIEC and mandating of that, in many States 
there are planning committees. And to make sure, I think what 
he had indicated was, the FCC is probably hesitant to require 
something of a State, whether it has something or not. But if 
it has something currently existing, they are hesitant to 
duplicate that or force that down upon the State in the form of 
a mandate.
    So what it might require is some communication with the 
States to say, you need one of these bodies. If you have one, 
it should be inclusive, it should include locals, it shouldn't 
be just State government. It should include everybody, all of 
the people who are going to be responding, and maybe they can 
use that in a way to communicate to the State and say, if you 
have one, just make sure it does these things, rather than 
forcing another entity on them or another body.
    Mr. Shays. I hear you. And I also am struck by the fact 
that maybe the Department of Homeland Security, it gets 
criticized by local communities. But maybe it needs to step in 
and acknowledge what States are really doing a great job and 
are good models, and which States are just simply dropping the 
ball.
    Mr. Devine. We agree entirely. In fact, part of what we're 
working to do now and as we've done with Virginia and other 
States, South Dakota, some of the experiences out of California 
and Missouri, is to try to collect those best practices. 
Because they provide a variety and enough range of flexibility 
among them that we think a lot of States could take some really 
valuable lessons from these. So a key part of what we're trying 
to do is sort of bottle that information so we can share it 
with all the rest of the States.
    As you've heard, a number of States not only don't have a 
body to coordinate this, they don't have an SIEC, neither do 
they have any other kind of a structure to help coordinate 
these things at the State level.
    Mr. Shays. And in the State of Connecticut, we don't even 
have counties to help organize.
    Anybody else who would like to put something in the record? 
Mr. Jenkins.
    Mr. Jenkins. This point has been made in our report, but I 
think it's very important, and that is that to the extent that 
the grant guidance itself and the way the Federal grants are 
structured actually encourages this sort of fragmented 
approach, and they do, the way that they're structured. They're 
part of the problem, they're not part of the solution. And I 
think one of the things that needs to be looked at is the way 
that grants are structured, the number, the purposes that they 
can be used for and the accountability for them.
    Right now, the fragmented nature of Federal grant structure 
actually makes it difficult for localities or regions to come 
together and use those different grants for a common purpose. 
That is something that needs to be addressed as well.
    Mr. Shays. Mr. Devine.
    Mr. Devine. Just one more quick note, with regard to Mr. 
Jenkins' comment. In Missouri, we had an 18 county region 
wanting to apply for communications equipment through the grant 
process as a region. And literally, the guidelines didn't allow 
that. It required up to a county level.
    So here you're actually negating the cooperation and 
coordination between these people by the regulations saying, 
no, you can't apply for that as one, as an 18 county entity. It 
has to be 18 separate requests, which bleeds down into a whole 
bunch of other complicated matters. So it's an interesting 
point.
    Mr. Shays. Well, we have our work cut out for us. We're all 
people of good will here, I know. But ultimately, I'm struck, 
Dr. Boyd, by the fact that somebody has to be in charge of 
this. And I will tell you, I believe ultimately, most Members 
of Congress thought it was the Department of Homeland Security 
that would help be the basis of it. If you are so inclined to 
start to exert more authority on this, you'll find a number of 
people, or at least get the Department to, that will say you're 
doing your job.
    Thank you all very, very much. We appreciate it a lot.
    We have our second panel, which is Mr. Hanford Thomas, 
director of the New York Statewide Wireless Interoperability 
Network; Mr. William Gardner, radio shop supervisor, Suffolk 
County, NY, Police Headquarters; Mr. Glenn Corbett, Department 
of Public Management, John Jay College of Criminal Justice, 
City University of New York. We invite all three to stay 
standing and we will swear you in.
    Thank you very much. I'd just like to say, for the first 
panel and second panel, we will be writing letters of questions 
that we didn't get to and it would be helpful to get a 
response. Thank you all.
    Mr. Thomas, Mr. Gardner, Mr. Corbett, if you'd stay 
standing, please. If there is anyone else that is joining you 
in that dialog, we have Mr. Gardner in the middle.
    Please raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all three witnesses 
have responded in the affirmative.
    You all have been here for the first panel and that's 
helpful, because you might want to make comments about that as 
well. Mr. Thomas, we'll go with you and then Mr. Gardner and 
then Mr. Corbett. We welcome your comments, your statement will 
be on the record if you want to just ad lib based on what 
you've heard already, feel free. It's your choice.
    Mr. Thomas.

 STATEMENTS OF HANFORD C. THOMAS, DIRECTOR, STATEWIDE WIRELESS 
NETWORK PROJECT, NEW YORK STATE OFFICE FOR TECHNOLOGY; WILLIAM 
   J. GARDNER, SUPERVISOR, SUFFOLK COUNTY POLICE DEPARTMENT, 
 TECHNICAL SERVICES SECTION, SUFFOLK COUNTY, LONG ISLAND, NY; 
 AND PROFESSOR GLENN P. CORBETT, JOHN JAY COLLEGE OF CRIMINAL 
                            JUSTICE

    Mr. Thomas. Good afternoon, Chairman and members of the 
subcommittee. I want to thank the subcommittee chair for the 
opportunity to testify today regarding the New York State 
statewide wireless network, an integrated, statewide land 
mobile and radio network for both State and local emergency 
first responders.
    My name is Hanford Thomas. I'm the Director of the 
Statewide Wireless Project under the Office for Technology. I 
was appointed in January 2000 and I'm responsible for the 
development and implementation of an integrated wireless land 
mobile radio network with statewide coverage, which will 
provide a common communication platform for New York State's 
public safety and public service agencies.
    The project is one of the largest technology projects ever 
undertaken in the State, and the first comprehensive upgrade of 
statewide radio communications in more than 30 years.
    Mr. Shays. Mr. Thomas, I'm going to interrupt you. We have 
Carolyn Maloney, who wanted to make sure that this panel was 
going to be part of our hearing. Regretfully, the stock option 
goes to the Floor and she has an amendment. I would like her to 
be able to make a statement then I'll come right back to you.
    Mrs. Maloney. I made an opening statement. I just want to 
thank the chairman again and all of you for your work. I can't 
think of anything more important than having a communication 
system that works. I just find it, I'm mystified that there 
hasn't been more of an effort focused on communications and to 
getting the systems working.
    I specifically asked for a panel on New York, because we 
still remain target No. 1, and we still have radios. The radios 
that didn't work on September 11 still do not work. And any 
insight that you can give us on how we can move this forward 
will be greatly appreciated.
    I am saddened that I can't stay to hear your testimony. I 
have, literally I have to debate on the Floor on something that 
I feel is very important to the safety and soundness of our 
financial markets. So I regret that I have to leave. My staff 
assistant is here, and I thank the chairman.
    Mr. Shays. We'll make sure they pay close attention. 
[Laughter.]
    Thank you.
    I'm sorry, Mr. Thomas, I wanted that to be on the record. 
Thank you.
    Mr. Thomas. The State of New York is working on many fronts 
involving enhanced operability. With the Canadian border to our 
north and New York City in the south, we are working to develop 
operational plans and technical capability to address all 
issues.
    The Canadian border activity brings together New York State 
Police, Federal agencies and the Royal Canadian Mounted Police 
to control border crossings and apprehend terrorists. These 
activities required shared, secure radio communications. My 
office is engaged in the development of a statewide wireless 
radio network. We are near the end of an extensive procurement 
practice. We have selected a prime contractor for the proposed 
award and are currently in final contract negotiations. SWN 
will be used by all State agencies and will also be available 
for use by other government entities, including authorities, 
counties and other local government and Federal agencies.
    The systems that exist today do not provide adequate 
coverage throughout the State. As a matter of fact, there are 
areas where coverage is spotty or non-existent. It is currently 
possible in some areas of the State that an emergency medical 
services team enroute to a medical facility with a critically 
ill patient might at times be unable to communicate or a police 
officer would be unable to relay vital information regarding a 
pursuit.
    To address these issues which place both the public and the 
public safety community at risk, the Statewide Wireless Network 
specifications require that the network provide 90 percent 
coverage on road and navigable waterways and 95 percent area 
coverage in each county in order to eliminate any potential for 
lost communications. In addition, the Statewide Wireless 
Network requirements call for 97 percent portable coverage in 
street in New York City.
    Just as standard voice communications have given way to 
electronic transfer of data in the office environment, the need 
for data transport to supplement voice and mobile 
communications is equally important. The purpose of 
interoperability is not whether government agencies can 
communicate, but whether or not they can communicate in a way 
that enhances their ability to respond effectively in a public 
safety crisis. Today, that capability is severely constrained 
by outmoded technology and disparate radio systems operating on 
different frequency bands. Individual agencies in New York 
State have a basic ability to communicate, but their ability to 
communicate between agencies in real time over wide areas is 
extremely limited.
    The most robust form of interoperability today is achieved 
by having all or a large number of agencies operating on the 
same or similar communications networks. Interoperability is 
seamless with no technology or geographic limitations. For 
those agencies whose current communications systems require 
replacement, joining a multi-agency shared network such as the 
Statewide Wireless Network is a cost effective way to achieve 
the highest level of interoperability. For those agencies that 
elect to maintain their own networks, the wireless network will 
offer them the option of linking to the statewide network. This 
will allow those agencies to communicate to other public safety 
agencies which they otherwise would not be able to do easily or 
on an expansive basis.
    An important public policy goal is fostering State and 
local partnerships. The Statewide Wireless Network encourages 
voluntary partnerships with local governments. The SWN advisory 
council and other outreach activities have been and will 
continue to be used to identify and address local government 
needs.
    The Statewide Wireless Network will replace the outdated 
standalone State agency systems and will be used for day-to-day 
operations, as well as disaster and crisis situations. The new 
radio network will make it easier for all agencies to 
communicate in both day-to-day and crisis situations and allow 
agency to agency communications where none exist today. New 
York State's Statewide Wireless Network will bring public 
safety communications in New York State into the 21st century 
by bringing as many as 65,000 Federal, State and local 
government users under one modern communications network, and 
providing links into other existing Federal and local 
government communications and data networks. SWN will 
facilitate full, seamless interoperability between the 
Statewide Wireless Network participating agencies any time, any 
place in New York State.
    New York State continues to seek use of public safety 
communication spectrum promised under the 1997 Balanced Budget 
Act in the 700 megahertz band width as part of crucial homeland 
security planning. To gain useful access to the spectrum, two 
actions must occur. First, the commercial television 
broadcasters must be compelled to vacate the spectrum no later 
than the current 2006 deadlines. Second, the FCC must 
facilitate frequency harmonization with Canada.
    To date, the FCC continues to license use of 700 megahertz 
public safety spectrum to low powered television stations in 
the New York City area, even though the wireless network is 
already licensed to operate on these same frequencies. This 
will only create additional obstacles which must be overcome as 
we build out the statewide wireless network.
    The FCC is currently negotiating with Industry Canada to 
harmonize use of 700 megahertz public safety band frequencies 
across the U.S.-Canadian border. It is critical that these 
negotiations be completed as soon as possible. At the same 
time, resolution of this issue alone will not allow New York 
State public safety agencies access to the new spectrum. 
Commercial television broadcasters must be compelled to vacate 
the spectrum again no later than the 2006 deadline.
    The Office for Technology has supported the development of 
the consensus plan and anxiously awaits the final details. The 
Statewide Wireless Network holds approximately 450 licenses 
that will be affected by the plan, and is one of the major 
public safety license holders in the country. As was 
accommodated within the FCC 700 megahertz plan, New York State 
would like the FCC to issue New York State's 800 megahertz 
frequency replacements in a block for statewide use.
    Large scale shared-use systems provide optimum efficiency 
in the use of spectrum. Trunking systems provide better 
spectrum utilization. In addition, the system can be designed 
and built for the future, which presently includes benchmarks 
for mandatory conversion to narrow band channels. By 
participating in a single large scale system, interoperability 
between the multiple agencies' systems users is inherently 
optimized.
    Interoperability systems to date have been constructed on a 
limited basis to meet minimal requirements. Systems that have 
been implemented for mobile coverage will be inadequate for 
portable coverage inside buildings. However, this limited 
deployment does not ensure that units arriving from distant 
areas will be equipped for operation on the implemented 
channels. In order to acquire the significant quantities of 
equipment necessary to build large area radio coverage on the 
FCC and NTIA designated interoperability channels, funding 
support will be required.
    That is the conclusion of my comments.
    [The prepared statement of Mr. Thomas follows:]

    [GRAPHIC] [TIFF OMITTED] T8118.075
    
    [GRAPHIC] [TIFF OMITTED] T8118.076
    
    [GRAPHIC] [TIFF OMITTED] T8118.077
    
    [GRAPHIC] [TIFF OMITTED] T8118.078
    
    [GRAPHIC] [TIFF OMITTED] T8118.079
    
    [GRAPHIC] [TIFF OMITTED] T8118.080
    
    [GRAPHIC] [TIFF OMITTED] T8118.081
    
    [GRAPHIC] [TIFF OMITTED] T8118.082
    
    [GRAPHIC] [TIFF OMITTED] T8118.083
    
    [GRAPHIC] [TIFF OMITTED] T8118.084
    
    [GRAPHIC] [TIFF OMITTED] T8118.085
    
    [GRAPHIC] [TIFF OMITTED] T8118.086
    
    [GRAPHIC] [TIFF OMITTED] T8118.087
    
    [GRAPHIC] [TIFF OMITTED] T8118.088
    
    [GRAPHIC] [TIFF OMITTED] T8118.089
    
    [GRAPHIC] [TIFF OMITTED] T8118.090
    
    [GRAPHIC] [TIFF OMITTED] T8118.091
    
    [GRAPHIC] [TIFF OMITTED] T8118.092
    
    Mr. Shays. Thank you, Mr. Thomas.
    Mr. Gardner.
    Mr. Gardner. Thank you for the opportunity to submit my 
testimony and to be present at this meeting. My name is William 
Gardner, and I'm a lifelong resident of Suffolk County, New 
York. I'm the Supervisor of the Technical Services section of 
the Suffolk County Police Department, 13th largest police 
department in the country.
    When I joined the Department in 1977, we had five single 
site base stations for police communications, one shot of 
microwave radio and a handful of computers. In the year 2004, 
today, the police communications system has a 22 channel, 800 
megahertz trunk system with 8,000 users on it, 179 different 
base stations at 13 different sites, we have a mobile data 
computer system with 700 computers in sector cars.
    There is also a separate infrastructure that runs that 
mobile data computer system using 13 UHF frequencies at 13 
different sites. In addition, we have a digital microwave radio 
system with a 6,000 channel capacity at 17 different sites.
    Since 1993, Suffolk has invested more than $50 million in 
these systems. Some of that money has come from COPS MORE 
grants. We had a $15 million grant back in 1997 or 1998, but at 
that level of investment, I was picking up on what the 
gentleman from New York was saying, the State, I think we're at 
odds a little bit about building the statewide infrastructure. 
We've got $50 million invested in our system. Our neighbor, 
Nassau County, currently has an RFP out on the street. They're 
looking to spend $48 million to build out their system. I think 
this problem of communication and who's in charge here, who's 
running the show, gets to be problematic.
    As our systems expanded, so did interoperability. The trunk 
system ties together, the Suffolk County trunk system ties 
together Federal, State, county, town and village agencies. All 
23 individual police departments in our county have access to 
the trunk system. Any of the 8,000 users can talk to any other 
user on that system.
    For mass response situations, there are law enforcement 
only talk groups, for county-wide disasters, we have county-
wide talk groups that allow all agencies access to any other 
agency. We also have the capability of direct communications to 
fire rescue dispatch. This has all been done since 1995.
    Radio communications with our neighbor, Nassau County and 
New York City still are very much lacking. I'm sorry to say 
that if a similar event to September 11 happened tomorrow, we 
would be in exactly the same communications problem that we 
were almost 3 years ago. We have no radios that are compatible 
with the system. Nassau County has only a handful of radios 
that are compatible with the system.
    Only recently, we established a radio link to Nassau Police 
headquarters. But without some intermediate intervention, such 
as that by a duty officer or watch commander, there is no 
direct radio communication between the departments. Similar 
circumstances exist for communications with NYPD.
    There are many reasons and causes for this lack of 
interoperability. Agencies build or are forced to build systems 
that they know cannot communicate with other agencies due to 
their own frequency, monetary or operational constraints. To 
improve our own interoperability in our area, the Suffolk 
police requested and were granted a Federal grant through 
Congressman Steve Israel's office, specifically to assist with 
interoperability with NYPD and Nassau County. The grant will 
allow the Suffolk police agencies to utilize the NYMAC UHF 
channels. Those channels were granted to us by the FCC.
    This grant request was a direct result of the events of 
September 11 where some 200 police from Suffolk County traveled 
to New York City, only to find a black hole of communications. 
The officers were out of range of the Suffolk system and they 
could not talk to any New York city officers, as we did not 
have any radios that were compatible with their system.
    Again, should a similar situation arise today, utilizing 
the grant radios which, if I can just backtrack a bit, it took 
2 years from grant approval to grant procurement. We only got 
the final OK from our own legislature last month in June. It 
took us 2 years from start to finish to make that grant and get 
the money. And we still don't have the equipment on the street.
    With the grant money, should a similar situation arise 
today, utilizing these grant radios, officers will now be able 
to communicate directly to any of the five city boroughs and 
directly to New York City police dispatch. The grant will also 
extend that UHF system out into Nassau and Suffolk Counties. 
This will allow NYPD officers and NYPD personnel as they come 
out onto Long Island, they will be able to utilize their own 
radios to talk on a system that we will maintain. They can 
commenced to us and we can communicate to them.
    Finally, the grant will also enhance the coverage of the 
800 megahertz national channels. We will extend the backbone of 
the national channels to three new locations, one in Nassau and 
two in Suffolk. NYPD will be provided with radio control 
stations which will tie in directly to these national channels.
    State participation, from my point of view, up to this 
point has been minimal, almost non-existent in the metropolitan 
area. Now it is pursuing a statewide wireless system intended 
to provide connectivity throughout the State for certain State 
agencies and local agencies and provide improved communication 
to other localities. Personally, I have reservations about this 
from a local perspective, but the general idea of improving 
interoperability and interconnectivity is a worthwhile pursuit.
    The FCC has been active locally through the efforts of 
Region 8 planning committee. By opening up the 800 megahertz 
spectrum, much needed new spectrum became available in the 
region. However, that available spectrum was quickly used up 
and there are no new frequencies available in the region on the 
800 megahertz spectrum.
    Fire departments in Suffolk County, for example, cannot be 
accommodated without additional frequencies. This and similar 
problems led to the opening of they 700 megahertz spectrum and 
the 4.9 gig spectrum, and Region 8 is now setting rules and 
guidelines for its use. We desperately need this new frequency 
spectrum.
    In my opinion, a major component of the FCC's future 
involvement is the adoption of the consensus plan for rebanding 
users within the 800 megahertz spectrum. Public Safety is a 
strong advocate of the consensus plan, which will separate the 
useable spectrums of commercial and public safety, greatly 
reduce interference, add more frequencies to the public safety 
pool, and make the 800 and 700 megahertz spectrums a contiguous 
spread of public safety only spectrum. I consider the consensus 
plan to be an extremely critical component of improving 
communications period, as well as having the capability of 
greatly improving future interoperability.
    I just want to take 1 second and say personally, this is, 
while it's not totally analogous, I think back to what we did 
in Y2K. I hear these stories about planning for 3 years and 5 
years and 7 years, and why we can't do this and we can't do 
that now. I know that when we worked to solve what was really a 
Y2K problem, we came together, we discussed issues at all 
levels of government. We had meetings, conferences. We brought 
together State, local and Federal Governments, commercial 
agencies, public agencies. We exchanged ideas, discussed 
issues. We identified problems and solutions and we implemented 
them.
    Much was made of the alleged scare tactics relative to Y2K 
when nothing of major proportions happened. However, I am 
firmly convinced that nothing major happened because of the 
efforts at all levels of government. We did such a great job 
that we overcame those obstacles in our path. If we can apply 
the same dedication and same level of cooperation, we can also 
overcome the obstacles of full interoperability.
    Thank you.
    [The prepared statement of Mr. Gardner follows:]

    [GRAPHIC] [TIFF OMITTED] T8118.093
    
    [GRAPHIC] [TIFF OMITTED] T8118.094
    
    [GRAPHIC] [TIFF OMITTED] T8118.095
    
    [GRAPHIC] [TIFF OMITTED] T8118.096
    
    [GRAPHIC] [TIFF OMITTED] T8118.097
    
    Mr. Shays. Thank you, Mr. Gardner.
    Mr. Corbett.
    Mr. Corbett. Chairman Shays and members of the House 
Subcommittee on National Security, Emerging Threats and 
International Relations, my name is Glenn P. Corbett. I'm the 
Assistant Professor of Fire Science at John Jay College in New 
York City. I also serve as a captain in the Waldwick, New 
Jersey fire department and as technical editor of Fire 
Engineering magazine, a 127 year old fire service trade 
journal. I want to thank you for inviting me to speak on this 
very important topic of public safety communications. I'd like 
to provide yo my observations of emergency communications in 
the New York City metropolitan area as well as provide you with 
a set of general recommendations.
    As has been noted before, effective communications are the 
life blood of all emergency responses, determining the level of 
success that is achieved. As has been well documented, gaps in 
communications had disastrous results at the World Trade Center 
on September 11. More than 100 firefighters likely never heard 
evacuation orders to leave the north tower, although police 
officers in the same structure were able to escape. Lack of 
radio interoperability and separate command structures in New 
York City's fire department and police department stood in the 
way of survival of these firefighters.
    Nearly 3 years have passed since the disaster at the World 
Trade Center, with some progress having been made in New York 
City and the metropolitan region. We still have a very long way 
to go, however. Significant monetary, technical, bureaucratic 
and political hurdles are in our path. Since September 11, the 
NYPD and FDNY have taken steps to integrate their 
communications at large scale incidents. They have for example 
ensured that NYPD helicopters will carry FDNY chiefs, who can 
then communicate to FDNY units on the ground. They've also 
provided radio equipment to senior level FDNY and NYPD officers 
who can communicate with each other.
    The FDNY itself has instituted the use of a post-radio 
system, a portable signal amplifier that allows for better 
communications in high rise structures. The unit is, however, 
currently limited to command officer to command officer radio 
transmissions and must be physically taken up in the building 
to a floor near the fire floor or floor where the incident is 
taking place.
    Utilization of this equipment replaces an extra middle man 
in the communications chain. For example, orders to evacuate a 
building from the lobby command post must first go through the 
chief officer on the fire floor and then be re-communicated to 
the firefighters themselves. Many consider this to be, this 
post radio to be a temporary fix with a long term permanent 
solution still years away.
    These improvements still leave significant problems to 
overcome. The FDNY still cannot communicate effectively in 
subway locales, although plans are apparently underway to 
improve the situation. This is the case despite the fact that 
the metropolitan transit authority has had subway communication 
system radio capabilities for some time. It must be pointed out 
that poor communications are not just a radio problem, but an 
issue involving radios, antennas, signal amplifiers, repeaters 
and the like. For example, achieving proper communications in a 
tall high rise building may necessitate the use of powerful 
radios in conjunction with a repeater installed inside the 
building.
    Who pays for this equipment is also at issue. While the 
radio is typically a city purchase, the repeater may need to be 
purchased and installed by the building owner.
    Perhaps even more problematic is the issue of 
interoperability in the context of New York City's new city-
wide incident command system, or CIMS. This new response 
protocol in my opinion greatly complicates response to 
chemical, biological and radiological terrorist attacks and 
what would be considered to be normal hazardous materials 
releases. It places the NYPD in charge of assessment, while 
placing FDNY in charge of life safety of such incidents. The 
net result is that both the FDNY and NYPD have personnel 
operating in dangerous hot zones of the incident, both under 
separate tactical level commanders and operating with different 
communications equipment.
    Communications problems are woven throughout this New York 
City battle of the badges, most recently surfacing during a 
mock drill involving a subway attack. A firefighter was thrown 
to the ground when he attempted to pass a police officer who 
was securing an area due to the presence of a suspected 
secondary explosive device. It's very possible that firefighter 
never understood that because it wasn't communicated to him.
    Communication challenges remain outside New York City as 
well. Bergen County, where I serve as a fire captain, has 69 
fire departments and over 100 police and emergency medical 
service agencies. This multiplicity of emergency response 
organizations obviously complicates communications. While nine 
mutual aid organizations have existed for decades to coordinate 
the 69 fire departments within Bergen County, radio frequency 
and channel standardization has been difficult at best. 
Although Bergen County has established a common frequency for 
all fire apparatus, this single one frequency would be quickly 
overloaded in any major disaster.
    Only recently have portable radios been issued to 
coordinators of these nine mutual aid groups to organize large 
scale responses. These radios, however, only allow for 
communication between the mutual aid coordinators and Bergen 
County's Office of Emergency Management. Interoperability 
between the multitude of agencies within Bergen County at a 
large scale incident, especially at the tactical level, remains 
an elusive need.
    Considering that another major terrorist attack on the 
order of September 11 in the New York City area would 
necessitate a region wide response involving multiple counties 
and possibly States, the problems grow exponentially. Although 
some progress in terms of integrating a multi-jurisdictional 
response has been made at the State level in both New Jersey 
and New York, I do not believe that the tangled communications 
snake pit has been straightened out.
    While New York City and its metropolitan regions are unique 
in many respects, many of the public safety communications 
issues that I have identified are applicable across the 
country. I have prepared the following recommendations to 
address these concerns.
    The first one is that the Department of Homeland Security 
Office of Interoperability and Compatibility must take a 
proactive role in equipment purchases at the State and local 
levels. Secretary Ridge recently announced the creation of this 
office within DHS. There is a critical need for this entity to 
take a close look at how Federal funds are being disbursed for 
acquisition of communications equipment at the State and local 
levels, specifically how these purchases fit into the region 
wide big picture in each State.
    This review could take place as part of DHS' role in the 
review of local emergency operations plans through the 
enactment of the National Incident Management System protocol. 
DHS also must play a more forceful role in encouraging 
interstate communication agreements where appropriate.
    The second idea is that States should be more forceful in 
assuring proper communications planning at the county and local 
levels. The States play a crucial role in overcoming turf 
battles within the borders. Too often, inter-jurisdictional 
jealousies lead to improper response protocols with a 
corresponding communications gap.
    A third idea would be that we need to ensure 
interoperability at the responder tactical level. This is 
something I didn't really hear a lot about today. This is the 
issue where basically, we have a concern that although one 
jurisdiction can talk to another, we don't have the 
interoperability between jurisdictions at the lower levels, the 
firefighters and police officers.
    Not that police officers and firefighters have to talk 
together, but if I would find myself, for example, in Stanford, 
Connecticut responding from Bergen County for whatever reason, 
I have no idea what channels or radios or equipment would even 
be utilized there. So we've got to make sure that this is not 
just a senior level State or county-wide situation, that this 
is in fact something that goes all the way down to the actual 
people where the rubber meets the road, basically.
    And the fourth suggestion I would have is that SAFECOM 
should increase their efforts to ensure the equipment is 
interchangeable. Proprietary technology creates immense 
barriers to purchases by State and local governments. 
Jurisdictions should not find themselves locked into a 
particular vendor and equipment purchases should not be an 
impediment to interoperable communications.
    That's something also I didn't hear a lot about today but I 
would encourage it. That's a very important thing, that 
whatever equipment is purchased needs to be interchangeable, 
that we can't have operating platforms, radio platforms that 
don't match across jurisdictions.
    Thank you very much for the opportunity to testify. I 
welcome any questions that you might have.
    [The prepared statement of Mr. Corbett follows:]

    [GRAPHIC] [TIFF OMITTED] T8118.098
    
    [GRAPHIC] [TIFF OMITTED] T8118.099
    
    [GRAPHIC] [TIFF OMITTED] T8118.100
    
    Mr. Shays. Thank you. Professor Corbett, because of your 
honesty, I'd like to ask unanimous consent to bestow on 
Professor Glenn Corbett an honorary doctorate in national 
security communication. Your degree will be your name plate 
that says Dr. Corbett.
    Mr. Corbett. Thank you.
    Mr. Shays. Without objection, so ordered.
    Mr. Corbett. Thank you.
    Mr. Shays. It's great to have this power. [Laughter.]
    I want to ask you, Mr. Gardner, the communications that you 
have with Nassau, should I in a sense visualize it like a red 
phone that you pick up and the only way you can communicate 
with Nassau is through that red phone? Or do you have the 
capability just integrated into your existing system and can 
Nassau communicate with any of your players or just the one 
holding the phone?
    Mr. Gardner. Two parts. It starts out as a hot phone, 
basically. It's from duty officer to duty officer. It cannot be 
activated by anybody out in the field, it has to be requested 
of somebody at the duty officer's position, for instance, in 
Suffolk County they can get on a talk group which is a radio 
channel dedicated specifically to talk only to Nassau County 
duty officer. On the Nassau County end, the Nassau County PD 
can then take one of their frequency bands, highway band, 
precinct band, whatever they want, patch it onto that talk 
group, patch it onto our system through the patch that the duty 
officers just made, and they can talk to any player in Suffolk 
County.
    Mr. Shays. So if the two gatekeepers choose to, almost 
anyone in Suffolk can talk to anyone in Nassau?
    Mr. Gardner. Correct. But it must have that third party 
intervention. It must be activated on both ends. But those are 
both, those are 7 day, 24 hours a day positions. There is 
always someone there at both of those positions. And basically 
it's not a phone, it's actually getting on a radio.
    Mr. Shays. I understand.
    Mr. Gardner. It's just basically me talking to you, when 
you hear that radio, you know it's me talking to you, pick it 
up, activate a patch on your end, and I do it on mine and we're 
in business.
    Mr. Shays. OK. Would both of you comment about the SWN 
system, what New York is doing? What are its positives, what 
are its negatives?
    Mr. Gardner. The hangups that I see is, and again, this is 
only my personal opinion, and I'm not nearly as smart as I'd 
like to be, we have invested locally, and I'm going to say 
Nassau and Suffolk County, over $100 million if you include 
Nassau's bid that just hit the street last week. We have an 
extremely robust infrastructure that talks for the length and 
breadth of Suffolk County. We have Federal, State and local 
agencies on it. There are 8,000 radios already utilizing it.
    I can't see a statewide system coming in and replacing that 
and doing anything better than we do. I don't know the full 
extent of what they're going to do within Suffolk County, 
whether they just want to talk or latch onto our system. But 
then if that's the case, then from a personal and taxpayer 
perspective, the amount of money that it's going to cost to 
build this system statewide does not benefit me to the amount 
of investment that I'm going to be getting from Nassau, Suffolk 
and New York City to put into this project.
    Mr. Shays. Professor Corbett.
    Mr. Corbett. I'm not knowledgeable enough, I think, to 
speak on that issue as far as statewide communications within 
New York State goes.
    Mr. Shays. In New York City itself, can someone speak to 
this issue, have they resolved how you communicate around 
buildings and the obstructions that occur? Is that a solvable 
problem without a lot of expense?
    Mr. Gardner. If I may, I'm a member of NYMAC, New York 
Metropolitan Area Advisory Committee for the FCC. We work 
fairly well together with the city. The city doesn't 
necessarily have coverage problems as much as they have the 
interoperability problems. Their coverage problems are not 
nearly as bad as they used to be. Their system has gotten more 
robust, and robust to the point where they can almost fully 
operate on portable radios throughout the city. That's always 
been their intention. And that is not nearly as much a problem 
as the interoperability questions.
    But we've even approached them, the FCC almost 
serendipitously, the day before September 11, those licenses, 
they're called the INTEROP channels in New York City, they 
operate in the UHF range, because those are radios that New 
York City already had. It was a question of the tail shaking 
the dog here.
    We have an 800 megahertz system that they can't talk to. We 
can't talk to their UHF system. Nassau couldn't talk to us. But 
you had this big 8,000 pound gorilla in New York City with 
almost 30,000 radios. You weren't going to ask them to change 
and go to the national system.
    So what we did is through the efforts of the NYMAC 
committee and the FCC, we got 6 INTEROP channels specifically 
for interoperability with and within New York City. Those 
channels are dedicated to interoperability and are manned 24 
hours a day by the city.
    Going back to one of the problems that was mentioned 
earlier, these timeframes that it takes to get this things 
going, those frequencies had only been established for probably 
7 or 8 days as being legally usable within the city by the FCC. 
If they had been done 6 months prior, maybe other radios could 
have been programmed in time to utilize them while we went into 
the city. Maybe other city agencies could have used them. Maybe 
the fire department could have used them.
    We worked at that problem for almost 7 years to get it 
resolved. It did ultimately get resolved, but it just takes so 
long to get these things done.
    Mr. Shays. Professor Corbett.
    Mr. Corbett. I would actually disagree with Mr. Gardner as 
far as the city goes. The fire department, I don't believe, is 
anywhere near where they need to be as far as communications 
within the subways.
    Mr. Gardner. I don't want to argue, but we were talking 
police. I didn't mention fire.
    Mr. Shays. OK. I know, you were talking police. So let me 
just say, so the police we think are OK but the fire we think 
we've got a challenge?
    Mr. Corbett. Yes. And I think that was, the police have a 
much more robust system within New York City. The fire 
department doesn't have near as much ability to communicate 
throughout the city. That's one of the major challenges that 
they have before them. And again, this post radio was an 
attempt, I guess a temporary fix to try to address that issue, 
at least in high rises. But they have significant gaps.
    To tell you the truth, I mean, I haven't seen evidence that 
they've actually identified where all these areas are within 
New York City. I mean, the logical places, but I don't know 
that they've done a comprehensive effort to try and identify 
every square inch of New York and where those problems are.
    Mr. Shays. Mr. Gardner, is there within Suffolk County the 
capability for fire and police and everyone to communicate with 
each other?
    Mr. Gardner. Yes, we can. Not on an individual radio to 
radio basis, but we can talk to fire dispatch and fire dispatch 
can communicate on all the police precinct channels and all the 
police county-wide channels.
    Mr. Shays. Is that same gatekeeper model where----
    Mr. Gardner. No, sir. Those are established talk groups on 
the radio system. They are usable without any level of 
intermediate action. They are in the radios and ready to go.
    Mr. Shays. So the $50 million you're talking about is just 
basically within the police department in Suffolk?
    Mr. Gardner. Not necessarily, sir. I am a member of the 
police department, but we also manage, because of the money 
invested in it, our system, as I said earlier. It takes in 
Federal agencies, State agencies, county agencies, town and 
village agencies.
    Mr. Shays. But it doesn't include fire?
    Mr. Gardner. It doesn't include any of the local fire 
departments, no. When the system originally was designed and 
requested, there were not frequencies available to accommodate 
that extra loading that the fire departments would have had on 
the system. And in addition, because it had big brother and 
cultural issues that were mentioned, they didn't want to be 
part of it as a whole. They actually opted out of it when we 
designed it.
    Mr. Shays. Interesting. They opted out.
    Mr. Gardner. Yes.
    Mr. Shays. How long ago did they opt out? When was this 
decided?
    Mr. Gardner. Our system went on line in 1993.
    Mr. Shays. So pre-September 11th?
    Mr. Gardner. Yes, sir.
    Mr. Shays. Thank you. Mr. Thomas.
    Mr. Thomas. The Statewide Wireless Network was never 
conceived as a, or scaled to replace all the radio systems in 
the State of New York, one, just due to cost. It's also in 
recognition of the fact that a lot of municipalities, a lot of 
counties, public safety and emergency first responders, 
agencies within that sphere have very good communications 
systems. They have, like Suffolk County, a modern digital 800 
megahertz radio system.
    The purpose of the Statewide Wireless Network as it was 
initiated was to replace the State's aging infrastructure for 
its public safety and emergency first responder agencies, New 
York State Police, Department of Transportation, DAX, ENCON and 
several other agencies.
    Decisions were made at the front end that once this network 
was put out, or as it was put out to cover the State agency 
needs, and to upgrade our systems, that because it had a 
statewide footprint with statewide coverage, it would also 
serve to enhance interoperability between agencies on a 
statewide basis, either through gateways with existing modern 
systems or for those agencies in other parts of the State which 
unfortunately aren't as sophisticated as Suffolk County's, and 
where there is not enough funding to adequately upgrade those 
systems that we would offer them the opportunity on a voluntary 
basis to partner with us in the wireless network and come onto 
the network and have us be their radio system. But again, on a 
voluntary basis.
    Having this statewide footprint out there creates a radio 
umbrella for us on a statewide basis where we can, using a 
digital trunked radio system, set up talk groups, set up 
interoperability with any locality that needs it. It also 
provides us the opportunity to foster those partners and 
produce efficiencies such as the ability to coordinate upstate 
resources as we move them or downstate resources as we move 
State resources around the State, whether we're involved in a 
problem in the western part of the State in the Niagara 
Frontier, the Adirondacks or the greater metropolitan New York 
area.
    We've also got several other things going currently with 
respect to the city of New York. We have a partnering 
arrangement we're working on now with the MTA in New York City. 
I spoke earlier about the use of the 700 megahertz frequencies 
that we've been allocated, and the need to have the DTB 
transition completed so that we get better access to those 
frequencies. For the purposes of the MTA, those are available 
right now, and we are working with the MTA to assist with their 
radio system in the tunnels within New York City, where we can 
in fact use those frequencies right now.
    Mr. Shays. Professor Corbett, you don't have any horse in 
this race. How do you react to what Mr. Thomas said?
    Mr. Corbett. Well, I think he pointed out, made a very 
important point that this seems to be a system where they're 
trying to get coverage across the State as far as point to 
point goes. But again, I go back to the issue of when it comes 
down to moving groups of people, firefighters, police officers, 
what have you, I think that's where it drops off the map here. 
Because we're still lacking, again, at those lower levels, that 
interoperability to talk to each other.
    This is a system where, and there are other systems out 
there, I know for example in New Jersey they've connected all 
the hospitals together. But that doesn't necessarily mean that 
they can go hospital to hospital, it doesn't mean that we can 
take a group of people in one area and talk to another. I think 
that's my observation, I think that's where we still lack a lot 
of capability basically.
    Mr. Thomas. This is not a point to point radio system. This 
will support any level of interoperability right down to 
individual and users. It will support 65,000 users at any given 
time on a statewide basis. It will support a quarter of a 
million pieces of equipment or unique addresses. It is 
specifically designed to provide that level of 
interoperability.
    Mr. Shays. We're not having a debate, so what's interesting 
is what you hear him say then he can clarify, then I'd love you 
to just react to that. Does that make it a more valuable 
effort?
    Mr. Corbett. Yes, I mean, that certainly explains it a 
little better. I think I understand it a little better now. But 
again, this, and correct me if I'm wrong, but I think the issue 
is not that the platform perhaps is there to communicate, but 
we actually don't have that communications capability. I mean, 
radio to radio, if one particular jurisdiction said, I want to 
be able to communicate from one group of firefighters to 
another, is that possible. I think the system exists, but I----
    Mr. Thomas. For one, the system doesn't exist. But 
ultimately yes, it will do what you're talking about.
    Mr. Corbett. Right.
    Mr. Shays. So before we close, give me an assessment of 
what I should learn from this panel. Hearing what we learned 
from the first panel, I'm kind of thinking that there may be 
some valuable pieces of information that I may not be picking 
up. What do you think this panel is sharing with the committee? 
In general, we have a statewide system--I'll tell you what I'm 
hearing. I'm hearing that we have a statewide system that will 
allow communities to communicate, that you can provide specific 
communication between community A and community T, I'm making 
an assumption that could mean fire or police communicating from 
place to place.
    I'm hearing Mr. Gardner tell us that they've got a pretty 
robust system in Suffolk, particularly as it relates to police, 
that it is totally modernized, digital and so within the 
county, they've got a pretty good communication, and now they 
have an agreement with Nassau to basically be able to tap in 
and vice versa. They can tap into your good system and you can 
tap into their good system and basically accomplish the same 
thing county by county. That's what I'm hearing.
    What is the negative I'm hearing and what's the positive? 
All three of you jump in. Mr. Thomas, what isn't happening that 
should happen? And let me put it this way, all of you think 
about it. Given what you heard in the first panel, where are 
we? Should I say, this is pretty good, we've got a good 
statewide system in New York, an important State, we've got an 
important county that's got a good system, we're on our way? 
What should I be hearing?
    Mr. Thomas. Well, I would think, I would be encouraged at 
the fact, the work that Suffolk County has already done. One 
thing that needs to be said with respect to the wireless 
network, we have had an advisory council for a very long time 
with different people involved. In fact, we've had Suffolk 
County serving on the advisory council, as we've produced the 
specifications for this system. A procurement of this size and 
magnitude, it's actually unprecedented.
    Mr. Shays. On a statewide basis?
    Mr. Thomas. On a statewide basis.
    Mr. Shays. What are we talking about in terms of dollars?
    Mr. Thomas. Estimates for the project run well over $1 
billion.
    Mr. Shays. Wow!
    Mr. Thomas. Now, having said that, I can't give you any 
more detail, because we're currently in contract negotiations. 
What I'd like to point out to public safety community here and 
in New York State, is we have, because of the procurement, and 
the way procurements are structured, had a need to not discuss 
the technology solutions that we are working on here that have 
been proposed by the vendors and so on. Those will be available 
as we conclude our negotiations and get this contract signed in 
the next few months.
    It is our intent and I think it will serve a lot of 
people's purposes once we can get out there, tell them exactly 
what the technology is, and they can avail themselves of this 
network to the extent that it serves their best interests, or 
they don't have to use it at all.
    Mr. Shays. If you haven't designed it well, or it will be 
outdated shortly, that will be one heck of a billion dollar 
expenditure.
    Mr. Thomas. This has been a very long procurement, and it 
has been very long because we've put an extensive amount of 
effort into correcting every problem we've seen develop in 
other States to ensure that we have a system that is current, 
it is sophisticated with respect to the technology, is 
spectrally efficient, but also that will be refreshed over the 
term of this contract, so that we're never again in the 
position of having 20 year old technology and having to do this 
type of upgrade again.
    Mr. Shays. When we've tried to upgrade our computer, IT 
systems in the Federal Government, it is a continual process of 
taking so long by the time we get it, it is an outdated system. 
It really is kind of pathetic.
    Any other reaction?
    Mr. Gardner. I would echo what we heard earlier from the 
earlier panel, too. The crying need is for frequencies. We have 
the need for frequency and frequency spectrums. And to make 
those spectrums able to talk to each other.
    The 700 megahertz, for instance, right now, there is no 
equipment made that will operate in those frequency ranges. So 
we can talk all we want about them and where they're going to 
be and who's going to use them. But there is no equipment you 
can buy today that will operate on those frequencies. We need 
to do things today and we also know what we can do 2 or 3 or 4 
years from now.
    We need the FCC, if at all possible, to speed up their 
decisions, speed up their regulatory process. We can't be 
waiting 3, 4, 5, 10 years, even when they make guidelines you'd 
like to be able to budget out what can I do 3 years from now, 
what I can do 5 years from now. If I don't know that they're 
going to make a decision, for instance, at all, new radios must 
be digital by year whatever, I can't plan now to upgrade my 
system, to begin changing out my system, to begin buying 
radios.
    If I had to go home today and buy radios, I couldn't 
because it would be a capital project, I'd have to put it in 
next year, and the earliest I would see the money would be 
2006. So these processes need to work hand in hand, and we need 
to get things in place as quickly as we can as far as planning 
goes and implement those plans.
    I also agree with what the panel I think earlier came up 
with about there needs to be some leadership, either at a 
Federal level or within the State. We have systems that can 
talk to each other that don't because they chose not to. We 
have systems that could have talked to each other but 
frequencies weren't available for them to buy or purchase or 
use, whether it's a commercial system or another town or a 
local government.
    Nassau County, again, our neighbor to our west, they're 
putting almost $40 million into a UHF system. We are a trunked 
system. They're going to be trunked with UHF, we're going to be 
trunked 800.
    In a perfect world, every one of those radios should be 
able to talk together with just a flick of a switch or a 
changing of the channel on a radio. Right now it's not going to 
be able to be done.
    I have another town to the east of us that built an 800 
system but chose not to build it onto ours. And I mean ours by 
Suffolk County. God bless them, they can make their own 
decisions and do whatever they want. But they made the 
deliberate decisions not to be part of a bigger county-wide 
system and enjoy the benefits of that. That would have allowed 
them access to the 8,000 radios on our system. They can't do 
that now, because they chose to build a standalone system.
    Same county, different towns, same State. There needs to be 
somebody who can sit and say, you will do this, you should do 
this, be sure to look at these options, have you looked at 
this, have you thought of this. Too much money is being spent, 
too much money in my opinion is being wasted.
    Mr. Shays. Anybody else want to make comments before we 
adjourn?
    Mr. Corbett. Yes. I would just echo what Mr. Gardner just 
said, but I would mention that DHS has to take that active 
role, as you mentioned earlier. That's the critical point.
    But it's got to get all the way down to the local level. It 
can't just be the States. Because I don't think the States have 
stepped up to the plate, at least in New Jersey, I don't 
believe we have, to address these issues. It's got to get all 
the way down, and I think there's mechanisms that do that, as I 
mentioned earlier through the NIMS enactment as well as through 
the funding that they provide. There's a mechanism to ensure 
that this is taken care of.
    Mr. Shays. Thank you all very much. You've been a wonderful 
panel and been very helpful. I appreciate it. Thank you.
    With that, this hearing is adjourned.
    [Whereupon, at 1 p.m., the subcommittee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statement of Hon. Dennis J. Kucinich and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T8118.003

[GRAPHIC] [TIFF OMITTED] T8118.004

[GRAPHIC] [TIFF OMITTED] T8118.005

[GRAPHIC] [TIFF OMITTED] T8118.101

[GRAPHIC] [TIFF OMITTED] T8118.102

[GRAPHIC] [TIFF OMITTED] T8118.103

[GRAPHIC] [TIFF OMITTED] T8118.104

[GRAPHIC] [TIFF OMITTED] T8118.105

[GRAPHIC] [TIFF OMITTED] T8118.106

[GRAPHIC] [TIFF OMITTED] T8118.107

[GRAPHIC] [TIFF OMITTED] T8118.108

[GRAPHIC] [TIFF OMITTED] T8118.109

[GRAPHIC] [TIFF OMITTED] T8118.110

[GRAPHIC] [TIFF OMITTED] T8118.111

[GRAPHIC] [TIFF OMITTED] T8118.112

[GRAPHIC] [TIFF OMITTED] T8118.113

[GRAPHIC] [TIFF OMITTED] T8118.114

[GRAPHIC] [TIFF OMITTED] T8118.115

[GRAPHIC] [TIFF OMITTED] T8118.116

[GRAPHIC] [TIFF OMITTED] T8118.117

[GRAPHIC] [TIFF OMITTED] T8118.118

[GRAPHIC] [TIFF OMITTED] T8118.119

[GRAPHIC] [TIFF OMITTED] T8118.120

[GRAPHIC] [TIFF OMITTED] T8118.121

[GRAPHIC] [TIFF OMITTED] T8118.122

[GRAPHIC] [TIFF OMITTED] T8118.123

[GRAPHIC] [TIFF OMITTED] T8118.124

[GRAPHIC] [TIFF OMITTED] T8118.125

[GRAPHIC] [TIFF OMITTED] T8118.126

[GRAPHIC] [TIFF OMITTED] T8118.127

[GRAPHIC] [TIFF OMITTED] T8118.128

[GRAPHIC] [TIFF OMITTED] T8118.129

[GRAPHIC] [TIFF OMITTED] T8118.130

[GRAPHIC] [TIFF OMITTED] T8118.131

[GRAPHIC] [TIFF OMITTED] T8118.132

[GRAPHIC] [TIFF OMITTED] T8118.133

[GRAPHIC] [TIFF OMITTED] T8118.134

[GRAPHIC] [TIFF OMITTED] T8118.135

[GRAPHIC] [TIFF OMITTED] T8118.136

[GRAPHIC] [TIFF OMITTED] T8118.137

[GRAPHIC] [TIFF OMITTED] T8118.138

[GRAPHIC] [TIFF OMITTED] T8118.139

[GRAPHIC] [TIFF OMITTED] T8118.140

                                 <all>

</pre></body></html>
